<html>
<title> - ASSESSING EPA'S EFFORTS TO MEASURE AND REDUCE MERCURY POLLUTION FROM DENTIST OFFICES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 ASSESSING EPA'S EFFORTS TO MEASURE AND REDUCE MERCURY POLLUTION FROM 
                            DENTIST OFFICES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2010

                               __________

                           Serial No. 111-139

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web:http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-133                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       DAN BURTON, Indiana
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
PETER WELCH, Vermont                 ------ ------
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2010.....................................     1
Statement of:
    Stoner, Nancy, Deputy Assistant Administrator for Water, U.S. 
      Environmental Protection Agency, Office of Water...........    10
    Walsh, William, of counsel, Pepper Hamilton, LLP, 
      representing American Dental Association; Steven Brown, 
      executive director, the Environmental Council of the 
      States; Alexis Cain, scientist, U.S. Environmental 
      Protection Agency, Region 5; and John Reindl, Mercury 
      Policy Project.............................................    74
        Brown, Steven............................................    82
        Cain, Alexis.............................................    92
        Reindl, John.............................................    98
        Walsh, William...........................................    74
Letters, statements, etc., submitted for the record by:
    Brown, Steven, executive director, the Environmental Council 
      of the States, prepared statement of.......................    84
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    28
    Cain, Alexis, scientist, U.S. Environmental Protection 
      Agency, Region 5, prepared statement of....................    94
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Information concerning regulation sales trend............    53
        Letter dated May 26, 2010................................   110
        Letter dated May 28, 2010................................    38
        Letter dated May 28, 2010................................   116
        Prepared statement of....................................     4
        Prepared statement of Alfred Dube........................    68
    Reindl, John, Mercury Policy Project, prepared statement of..   100
    Stoner, Nancy, Deputy Assistant Administrator for Water, U.S. 
      Environmental Protection Agency, Office of Water, prepared 
      statement of...............................................    13
    Walsh, William, of counsel, Pepper Hamilton, LLP, 
      representing American Dental Association, prepared 
      statement of...............................................    77
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    62


 ASSESSING EPA'S EFFORTS TO MEASURE AND REDUCE MERCURY POLLUTION FROM 
                            DENTIST OFFICES

                              ----------                              


                        WEDNESDAY, MAY 26, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m. in 
room 2154, Rayburn House Office Building, the Honorable Dennis 
J. Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Watson, 
Jordan, and Burton.
    Staff present: Jaron R. Bourke, staff director; Charisma 
Williams, staff assistant; Leneal Scott, IT specialist, full 
committee; Ashley Callen, minority counsel; and Molly Boyl, 
minority professional staff member.
    Mr. Kucinich. We are going to call the meeting to order. 
The Subcommittee on Domestic Policy of the Committee of 
Oversight and Government Reform will now come to order.
    We are joined by our ranking member, Mr. Jordan. Thank you.
    Today's hearing is the third held by our subcommittee on 
the subject of the pollution from mercury used in dentistry. 
This hearing, the first to be held during the Obama 
administration, will examine actions undertaken by the EPA and 
other stakeholders to improve measurement of and limit mercury 
pollution from dental sources.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Mercury, especially methylmercury, is a very serious 
environmental and public health threat. It is persistent and 
bio-accumulative in nature and can cause birth defects, chronic 
illnesses, mental disorders, autoimmune disorders, and 
neurodegenerative diseases in human beings. Young children and 
unborn fetuses are particularly susceptible to mercury 
toxicity.
    The largest source of mercury air emissions is smoke from 
coal-burning power plants, about 50 tons per year. The next 
tier of major mercury air emissions is attributable to 
incineration of automobiles and mercury switches and pollution 
from industrial and commercial boilers. Each of these emissions 
is about 7\1/2\ tons per year.
    Today's hearing addresses what scientific evidence suggests 
may be an unrecognized member of that second tier of major 
source of mercury pollution. Currently, dentists use more than 
20 tons of mercury per year in dental fillings, replacing or 
repairing current fillings or putting new fillings in. Where 
does all that waste mercury go? Often it goes down the drain, 
and if there isn't a major storm causing the sewers to 
overflow, the waste mercury ends up in a public water treatment 
works where it settles into biosolid sludge.
    Many municipalities burn this sludge in incinerators. The 
mercury in incinerated sludge is vaporized and goes into the 
air. Over 1,000 tons of mercury are currently in the teeth of 
Americans. Millions of Americans opt for cremation at death. 
When corpses are cremated, the mercury in their teeth goes up 
in the air.
    How much dental mercury ends up in the air? According to 
official estimates from EPA, the amount of mercury released 
into the air when sewage sludge is incinerated is small, about 
0.6 tons per year. According to EPA, the amount of mercury 
emitted into the air from cremation is also insignificant, 
about 0.3 tons per year. But actual mercury emissions from 
crematoria and sludge incinerators may be more than five times 
greater than EPA's official estimates.
    EPA, itself, admits its estimates of air emissions from 
sewer sludge incinerators are poor and unreliable. EPA's 
estimate for emissions from crematoria is also suspect because 
it is based entirely on tests conducted more than 10 years ago 
on a single crematorium. No effort was made at the time to 
determine whether or not the test was conducted as a 
representative sample.
    In spite of these deficiencies, EPA never changed its air 
emission estimates for sludge incinerators and crematoria, and 
they are repeated in EPA's written testimony today. But we have 
found one EPA scientist whose scientific research disputes the 
official estimates. He will testify today on his own behalf, 
because his scientific work has never been fully or officially 
adopted by EPA, but EPA has had plenty of time to consider his 
findings and revise the official estimates. He has been 
presenting at conferences since 2005, and in 2007 published his 
findings that EPA's official estimates significantly under-
counted mercury air emissions.
    In a previous hearing, this subcommittee received testimony 
establishing that the true range of mercury air emissions 
attributable to dental mercury could be as high as seven to 
nine tons per year. That would put dental mercury emissions on 
par with major source of mercury air emissions.
    If EPA under-estimated the extent of the environmental 
problem caused by dental mercury, it has also over-estimated 
the amount of cooperation dentists have voluntarily given 
toward preventing amalgam from leaving dental offices in 
wastewater. The technology for capturing mercury is known as 
the amalgam separator.
    In 2008, EPA effectively agreed with comments submitted by 
the American Dental Association, which asserted, in part, that 
significant numbers of dentists are voluntarily purchasing 
amalgam separators and are thereby reducing the amount of 
mercury their offices use and wash down the drain. Thus, EPA 
granted an exception for dental offices from mandatory effluent 
guidelines in 2008; instead, EPA entered into a voluntary 
memorandum of understanding in the last days of the previous 
administration to encourage dentists to adapt amalgam 
separators to prevent the mercury that they use every day from 
going down the drain to the publicly owned water treatment 
facilities.
    But what happens in practice is far different from the 
assumptions that justified the exception and a memorandum of 
understanding. Unfortunately, in State after State dentists 
have, by and large, been slow to adopt mercury separators 
unless they were facing mandatory regulations. According to 
testimony received today from the Environmental Council of the 
States, a national association of State environmental 
protection agencies, ``in many jurisdictions dental amalgam 
separator installation rates were low unless there was a 
mandatory component.''
    That conclusion is consistent with our staff report 
published in September 2008 and it is consistent with the sales 
data trends from the largest manufacturer of mercury 
separators. Dentists do not respond in large numbers to a 
purely voluntary program to encourage mercury separator use. 
Indeed, the American Dental Association promulgated voluntary 
best management practices for disposing of amalgam waste in 
2007, but the majority of dentists who installed separators at 
this time reside in States or local jurisdictions where 
separator use is a requirement.
    Today's hearing will focus primarily on whether or not the 
EPA's memorandum of understanding can achieve its purpose in 
its current form. In preparation for this hearing, my staff has 
assessed progress made under the memorandum of understanding. 
What we found is that every milestone established by it has 
been missed in the nearly 1\1/2\ years since it was signed. 
Serious questions arise about whether the memorandum of 
understanding has some inherent deficiencies such as: can the 
parties to the memorandum deliver a high rate of dentist 
compliance with best management practices for amalgam pollution 
prevention? Would the MOU's chance of success increase if 
additional parties were allowed to become signatories? What 
measure is EPA prepared to take to ensure that the failures to 
date of the memorandum of understanding practice do not predict 
the ultimate failure of the EPA's efforts to encourage dentists 
to remove mercury waste from wastewater before it leaves the 
dentists' offices?
    We hope to get the answers to these and other questions 
today.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5133.001

[GRAPHIC] [TIFF OMITTED] T5133.002

[GRAPHIC] [TIFF OMITTED] T5133.003

[GRAPHIC] [TIFF OMITTED] T5133.004

[GRAPHIC] [TIFF OMITTED] T5133.005

    Mr. Kucinich. Thank you for being here.
    I recognize Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman, for holding this 
hearing to examine the Environmental Protection Agency's role 
in the use and disposal of dental amalgam by the dental 
industry.
    I just have a short statement.
    Dental amalgam, or the silver fillings that many of us 
have, are a compilation of metals, mainly mercury. According to 
the Centers for Disease Control and Prevention, there is little 
scientific evidence that dental amalgam poses a health threat; 
however, I know this is a controversial area.
    Today we are focusing on the EPA's role in the disposal of 
dental amalgam. My understanding is that the industry and the 
regulators are conversant on this topic and have executed a 
memorandum of understanding. I am interested in learning how 
that MOU is working, how it was developed, etc.
    I would like to point out that traditionally regulation of 
the dental industry is a matter reserved to the States, a very 
important principle I think we need to keep in mind as we think 
about our Federalist system as we move through this hearing and 
look at this issue; therefore, I hope to hear more about what 
States are doing to assist in this concern.
    Mr. Chairman, thank you again for putting this together. I 
appreciate the working relationship that we have, and I want to 
thank the witnesses who are here today for their participation.
    With that, I yield back.
    Mr. Kucinich. Thank you very much, Mr. Jordan.
    If there are no additional opening statements, the 
subcommittee will now receive testimony from the witness before 
us.
    I want to start by introducing Ms. Nancy Stoner. Ms. Stoner 
joined the U.S. Environmental Protection Agency as the Deputy 
Assistant Administrator for the Office of Water on February 1st 
of this year. This is Ms. Stoner's second tenure with EPA, as 
she directed the Office of Planning and Policy Analysis and the 
Office of Enforcement and Compliance Assurance from 1997 to 
1999. More recently she was co-director of the Natural 
Resources Defense Council's Water Program. Prior to that, she 
served as project director and attorney for the Clean Water 
Project for nearly 10 years.
    Deputy Assistant Administrator Stoner, thank you for 
appearing before the subcommittee today.
    In view of the division of responsibilities at EPA, Ms. 
Stoner is able to speak authoritatively on issues pertaining to 
water and to the memorandum of understanding on reducing dental 
amalgam discharges. We will send questions in writing to EPA 
concerning EPA's efforts to measure mercury air emissions.
    Now, Ms. Stoner, as you know, it is the policy of the 
Committee on Oversight and Government Reform to swear in all 
witnesses before they testify. I would ask that you rise and 
raise your right hand.
    [Witness sworn.]
    Mr. Kucinich. I thank you. Let the record reflect that the 
witness has answered in the affirmative.
    I ask, Ms. Stoner, that you now give a brief summary of 
your testimony, and to keep this summary under 5 minutes in 
duration. Your entire written statement will be included in the 
hearing record. I ask that you begin. Thank you.

 STATEMENT OF NANCY STONER, DEPUTY ASSISTANT ADMINISTRATOR FOR 
  WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY, OFFICE OF WATER

    Ms. Stoner. Thank you. Thank you very much, Mr. Chairman, 
for that lovely introduction. I appreciate the opportunity to 
testify today before you and Ranking Member Jordan about the 
Agency's policies on mercury and, in particular, dental 
amalgam.
    Mercury is widespread and persistent in the environment, 
and under certain conditions can be transformed by 
microorganisms into methylmercury, the form of mercury of 
greatest concern in the United States, where exposures occur 
primarily through fish consumption.
    EPA is using its legislative mandates under the Clean Air 
Act and the Clean Water Act to reduce the U.S. contribution to 
the worldwide environmental mercury burden. Under the Clean Air 
Act, EPA has substantially limited U.S. emissions of mercury to 
the atmosphere through maximum achievable control technology, 
MACT, and solid waste combustion incineration regulations. As a 
result, the United States has cut its emissions by more than 90 
percent from two of the three largest categories of sources, 
municipal waste combustion and medical waste incineration, 
since 1990.
    For the other largest category, coal-fired power plants, 
EPA is now in the process of developing a MACT standard that 
will address mercury and other hazardous air pollutants.
    Just last month, EPA proposed MACT regulations to 
significantly reduce mercury air emissions from another large 
source category: industrial, institutional, and commercial 
boilers. EPA also plans to finalize air emission standards in 
December of this year to address mercury and other air 
pollutant emissions from both new and existing sewage sludge 
incinerators.
    EPA is committed to reducing mercury discharges to our 
Nation's waters. In April EPA published final guidance for 
implementing the January 2001 ambient methylmercury water 
quality criterion for the protection of public health. This 
document will help protect waters and human health by giving 
guidance to States, territories, and authorized tribes for 
adopting a fish-tissue-based methylmercury water quality 
criterion into their water quality standards.
    Last fall EPA also initiated effluent guideline rulemaking 
under the Clean Water Act to address mercury and other 
wastewater discharges from power plants.
    Dental amalgam contributes a small portion of all mercury 
released globally to the environment from human activities; 
however, at the local level data indicate that discharges from 
dental facilities can be a significant contributor to mercury 
in the environment. Mercury containing amalgam wastes may find 
their way into the environment when old mercury-containing 
fillings are drilled out and waste amalgam materials are 
flushed into chair-side drains entering the sewer system.
    Dental facilities may employ a variety of controls and 
management practices to reduce the discharge of mercury amalgam 
in wastewater. Application of these practices, in conjunction 
with traps and vacuum pump filters, can reduce discharges of 
mercury containing amalgam and wastewater by more than 75 
percent. Amalgam separators remove particulate mercury amalgam 
and, in combination with traps and vacuum pump filters, achieve 
better than 95 percent removal.
    Some of the waste amalgam particles that reach the sewer 
system settle out in the sewers and some are carried to sewage 
treatment plants. The processes used at sewage treatment plants 
remove 90 to 95 percent of the mercury present in wastewater on 
average. The mercury removed from wastewater then resides in 
the biosolids, or sewage sludge, generated during wastewater 
treatment.
    Preventing dental amalgam from getting into the sewer in 
the first place reduces the amount of dental amalgam, and thus 
mercury, in wastewater. Amalgam separators are also available 
at relatively low cost to remove fine particles of waste 
amalgam. Several studies, including one conducted by EPA's 
Environmental Technology Verification Program, show separators 
are highly effective.
    Another way to reduce the amount of amalgam entering the 
sewers is for dentists to use mercury-free fillings. 
Alternatives to mercury-containing dental amalgams exist. As 
fewer mercury-containing dental amalgams are used, the amount 
of mercury in the environment will decline.
    Every other year EPA publishes a final Effluent Guidelines 
Program Plan. The plan addresses both categories of direct and 
indirect discharges. As part of its 2008 Effluent Guidelines 
Program Plan, EPA received comments from the American Dental 
Association and the National Association of Clean Water 
Agencies on dental amalgam. These comments led to discussions 
of voluntary efforts and ultimately served as the basis for the 
memorandum of understanding on reducing dental amalgam signed 
in December 2008.
    The purpose of the agreement between EPA, ADA, and NACWA is 
to have dental offices follow the ADA's best management 
practices, which include the installation of an amalgam 
separator, proper maintenance of such separators, and recycling 
of all amalgam waste collected in dental offices.
    In our 2008 Effluent Guidelines Program Plan, we committed 
to continue to examine the use of amalgam separators by 
dentists. As part of our 2010 effluent guidelines planning 
process, EPA intends to reevaluate whether a rulemaking is 
appropriate. EPA will be issuing its 2010 Program Plan late 
this calendar year, and will specifically address this issue.
    In closing, let me assure this subcommittee that EPA is 
committed to reducing mercury-related risks to citizens and the 
environment. In this regard, EPA and State representatives have 
scheduled a June 24th meeting to kick off an EPA/State dialog 
on mercury. The purpose of this dialog is to identify gaps, set 
priorities, enhance EPA/State collaboration, and identify 
future areas of work.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you or your colleagues may have.
    [The prepared statement of Ms. Stoner follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.006
    
    [GRAPHIC] [TIFF OMITTED] T5133.007
    
    [GRAPHIC] [TIFF OMITTED] T5133.008
    
    [GRAPHIC] [TIFF OMITTED] T5133.009
    
    [GRAPHIC] [TIFF OMITTED] T5133.010
    
    [GRAPHIC] [TIFF OMITTED] T5133.011
    
    [GRAPHIC] [TIFF OMITTED] T5133.012
    
    [GRAPHIC] [TIFF OMITTED] T5133.013
    
    [GRAPHIC] [TIFF OMITTED] T5133.014
    
    Mr. Kucinich. Thank you very much.
    We have been joined by Mr. Burton. Welcome.
    Mr. Burton. Thank you.
    Mr. Kucinich. We are going to move to a question period 
here of the witness, Ms. Stoner.
    At the end of the Bush administration, EPA signed a 
memorandum of understanding establishing a voluntary framework 
to encourage dentists to adopt amalgam separators to reduce 
dental mercury discharge into the environment. Can you tell us 
how and why that happened?
    Ms. Stoner. Mr. Chairman, I was actually not involved in it 
directly, myself.
    Mr. Kucinich. Do you know anything about it?
    Ms. Stoner. I know that we were approached in the comment 
process of the effluent guidelines plan with a suggestion that 
we consider an agreement with ADA to encourage the use of a 
technology that we thought would be effective in helping to 
reduce mercury emissions.
    Mr. Kucinich. OK. Well, in their written testimony the 
State EPAs have testified that they had asked EPA to establish 
``a nationwide program with a goal of substantially reducing 
release of mercury to the environment from dental amalgam 
mercury, and the stakeholders would include but certainly not 
be limited to the American Dental Association, U.S. EPA, 
States, publicly operated treatment works, and dental supply 
manufacturers.''
    Only 13 days later, the EPA signed a voluntary memorandum 
of understanding with the American Dental Association and the 
publicly operated treatment works, but excluded the other 
suggested parties such as the States. Indeed, the States 
testify, ``neither ECOS nor the Quicksilver Caucus were 
involved with the development of the memorandum of 
understanding. ECOS and Quicksilver Caucus members were not 
aware that the EPA was working to develop such an agreement. 
States were not asked to be a party to the memorandum of 
understanding.''
    So could you tell us why the EPA excluded the States from 
the memorandum of understanding when enforcement of the Clean 
Water Act and the Clean Air Act is shared responsibility with 
State offices?
    Ms. Stoner. I am less able to tell you what happened in the 
past, but I can tell you where we are going moving forward.
    Mr. Kucinich. OK.
    Ms. Stoner. We do have a meeting with the States on June 
24th which will look at mercury in a variety of media. It is 
actually a multi-office EPA meeting. We are looking to work 
collaboratively with our State partners, as well as the 
manufacturers and other interested parties in moving forward to 
build on the MOU.
    Mr. Kucinich. So let me ask you then, as a logical followup 
to your answer, if you are moving forward, does moving forward 
mean that you want to incorporate the State EPAs as co-
signatories on the agreements?
    Ms. Stoner. I am not sure that we will actually move 
forward by revising the MOU. We see the MOU as a base to build 
on, and so there are other things that we are considering.
    Mr. Kucinich. If you want to build on it, though, wouldn't 
you want them to sign it?
    Ms. Stoner. I have not engaged in the discussion with them 
about it. I don't have a view on that, but I do have a view 
that we would like to work closely with our State partners. We 
would like to gather information from them, from the dental 
amalgam manufacturers, from others to improve the information 
we have and consider whether additional efforts can be made.
    Mr. Kucinich. OK. Here is the thing: you want to move 
forward. Fine. I'm with you. Except I need an answer to this. 
You really have not given me the answer I was hoping for with 
respect to getting the States right there with you, and I am 
wondering why the EPA didn't involve the States in the 
development of the memorandum of understanding or even notify 
them that a memorandum of understanding was under development.
    Ms. Stoner. Well, let me suggest on that particular point--
--
    Mr. Kucinich. That is a fact. I mean, you can check on it, 
but, look, I don't need you to validate a fact. What I need you 
to do is to tell me if there is any change in your policies, 
because Mr. Jordan and I may come to some different conclusions 
about what States will do, but we both agree that the States 
ought to be involved here. Am I hearing from you that EPA is 
taking a different posture with respect to involvement of the 
States?
    Ms. Stoner. I would suggest two things. One is that we 
would be happy to get back to you with a written answer as to 
what happened in 2008, December 2008.
    Mr. Kucinich. But let's go forward. What are you going to 
do?
    Ms. Stoner. Well, we are going to involve the States and we 
are going to have a discussion about what is the most 
productive thing for us to work with the States on moving 
forward, and we are starting to do that next month.
    Mr. Kucinich. When you are crafting that written answer, 
juxtapose it with what you are going to do differently.
    Ms. Stoner. I will. Thank you.
    Mr. Kucinich. Mr. Jordan.
    Mr. Jordan. Thank you.
    Ms. Stoner, thank you for being here.
    You said several times in your response to the chairman 
about building on the MOU. Tell me, just kind of refresh my 
memory, how is the MOU working? I mean, we talk about building. 
What does that mean? What additional costs does that mean? What 
do you mean by building on it?
    Ms. Stoner. Well, one thing is setting goals under the MOU. 
That is one thing that we would like to do is to set and, 
frankly, achieve some goals in terms of greater use of mercury 
amalgam separators. That is something we would like to do. We 
would actually like to get better information than we have 
right now about the use of amalgam separators. We did get some 
information. ADA did some surveys. We would like to actually 
get more information.
    Mr. Jordan. OK.
    Ms. Stoner. One of the things we would like to do is go to 
the manufacturers and get information from them and have a 
better baseline.
    Mr. Jordan. A couple of questions. What do these separators 
cost, typically?
    Ms. Stoner. They range in cost. I would say one to two 
thousand dollars, I would say would be approximately. I could 
get more specific information on that for you.
    Mr. Jordan. Let's say a dental office has several chairs. I 
don't know how the technology works, exactly, but do you have 
to have it at each and every room where the dentists or 
assistants are doing work on the patient?
    Ms. Stoner. I believe that is correct, that you need to 
have it with every chair.
    Mr. Jordan. So it could be several thousand dollars?
    Ms. Stoner. Could be.
    Mr. Jordan. OK. And how many dentists are currently using 
this separator, percentage-wise.
    Ms. Stoner. Let me just clarify on the previous point. You 
can hook up multiple chairs to one separator, so you do need a 
separator that hooks up to each chair, but you can attach 
multiple chairs.
    Mr. Jordan. OK.
    Ms. Stoner. I am sorry. I forgot the second question.
    Mr. Jordan. How many dentists across the country right now 
do you think are using this?
    Ms. Stoner. As I said, we don't have really good 
information on that. We would like to get better information, 
including by getting information from the manufacturers.
    Mr. Jordan. Are there States that mandate right now?
    Ms. Stoner. Yes, there are.
    Mr. Jordan. How many?
    Ms. Stoner. It is twelve States.
    Mr. Jordan. Twelve States mandate. And are the results such 
that you see less mercury in the water supplies of those areas 
than you do in States that don't mandate?
    Ms. Stoner. You certainly see more use of dental amalgam 
separators in those States.
    Mr. Jordan. Significant?
    Ms. Stoner. Yes. The rates are significantly better in 
States that mandate the use of the separators. That is right. 
So you would have less mercury going into the sewage treatment 
plants and you would have less coming out. A lot of the mercury 
is removed in the sewage treatment plant.
    Mr. Jordan. Refresh my memory. How long has the MOU been in 
place now? A couple of years?
    Ms. Stoner. Since December 2008.
    Mr. Jordan. So a couple years. All right. And I assume you 
and the ADA have undertaken, as part of the memorandum, some 
kind of educational program? You are telling dentists across 
the country why this is important, etc.?
    Ms. Stoner. That is right. For EPA's part, we have done 
Webinars. We have provided information at conferences. We have 
information on our Web. We are trying to get the word out.
    Mr. Jordan. OK. Mr. Chairman, I am fine right now. I will 
yield back.
    Mr. Kucinich. Mr. Burton.
    Mr. Burton. First of all, let me say that Mr. Jordan is one 
of the finest Congressmen we have, and I really like this guy, 
but I disagree with him. Mercury is probably one of the most 
toxic substances on the face of the earth, and it is toxic 
before it goes into a person's mouth and it is toxic when it 
comes out, but it is not toxic when it is in their mouth. That 
is the most ridiculous thing I have ever heard.
    I am absolutely convinced, after having hearings for 4 
years on this when I was chairman, that mercury is toxic and it 
should not be put in the human body in any way.
    Can I take my 5 minutes after this, Mr. Chairman, so I can 
go ahead after I finish this, if you don't mind?
    Mr. Kucinich. Without objection.
    Mr. Burton. The thing I want to get across, my grandson got 
nine shots in 1 day, seven had mercury in them. He became 
autistic. We used to have one in 10,000 children that are 
autistic; now it is one in under 100. It is an absolute 
epidemic, and yet the FDA and CDC and others continue to deny 
that mercury, a toxic substance put into the human body, is 
going to affect the neurological system. There is no question 
that it does. None whatsoever.
    I had scientists for 4 years from all over the world come 
in and testify. And mercury amalgams, when they are taken out 
of the tooth and flushed down the drain--now my 5 minutes 
start--they go into our water supply and the sludge and all the 
other things that you enumerated. That should not happen.
    Women who are pregnant are told not to eat fish in certain 
areas of the country because it has mercury in them. How does 
it get in there? It is getting in there because we are flushing 
mercury down the drain. It should not be there.
    I know $2,000 is a lot of money, but a dentist can afford 
it if he is doing his job right and he should have separators. 
We should not allow mercury into the system whatsoever.
    I am not an environmental nut case. I mean, I think the 
environmental nut cases drive this country and this Congress 
nuts. But this is one area where I feel very strongly about. 
Mercury is toxic. It should not be put in a human being in any 
way at all. And we had scientists come in. I know the ADA 
doesn't agree with me and they tried to get me defeated in the 
last election again. That is OK.
    But the ADA says that the mercury in an inner substance 
like a filling doesn't cause any problems, and yet we had 
scientists from all over the world testify at that table that 
when you have hot and cold in the mouth it releases a vapor, 
and the mercury vapor does go into the blood stream and does 
get into the brain.
    We have a huge increase in neurological problems among 
children that get all these shots. We have an increase in 
people who have Alzheimer's. I believe that part of that is 
caused by the mercury that is injected into people in shots and 
in the mercury amalgams, and it seems to me that we ought to 
get that out of anything that goes into the human being. 
Anything. And we certainly shouldn't be flushing it down the 
drains.
    My God, down at Newport News, Virginia, the Navy got so 
upset about the amount of mercury that was going from military 
personnel's fillings into the water system that they mandated 
that they had huge barrels of it to catch the mercury fillings 
so it wouldn't contaminate the water supply down there.
    There is no question, none, whatsoever. This isn't nut case 
stuff. There is no question that mercury should not be in the 
water supply and we should do everything we can to keep it out 
of there, and that is why the biggest contaminator are the 
dentists who are flushing this stuff down the drains, and so we 
need to have these separators. That is important.
    The other thing is, we need to inform people who are going 
into a dentist's office or who are getting a shot or whatever 
it is that there is mercury in that substance. If you are going 
in to get a shot and you know there is mercury in that shot, 
like thimerosal, which is a preservative in shots that we get, 
and if you get a shot where they have the rubber top on it and 
you stick the needle in, it has thimerosal in it, and 
thimerosal has mercury in it. Over a long period of time, 
mercury accumulates in the brain. If you keep getting these 
shots over and over, it is going to have some kind of an 
adverse impact in most people, or in many people, so it 
shouldn't be in there.
    But if it is there, and if it is in amalgams, the people 
have a right to know. It is their life. Now, we are telling 
people that eat fish, Be careful, because there is mercury in 
that fish, and if you are pregnant it might cause a 
neurological problem in your baby so don't eat those fish if 
they have mercury in them, and yet we are putting mercury into 
the water supply, we are putting it into our mouths, we are 
putting it into our shots, and the FDA and HHS aren't doing 
anything about it.
    Like I said, I don't like the Government to stick its nose 
into States' rights. I don't like the Federal Government taking 
over anything. But this is one area where the entire society is 
at risk as long as mercury is being injected into human beings. 
I feel so strongly about it.
    Do you know what it is like to have a 2-year old child 
getting nine shots in 1 day, a perfect child, starting to talk, 
walk, and everything else, and all of the sudden he is banging 
his head against the wall running around? And I talked to 
people at that table who are losing their homes, going bankrupt 
because they have kids who have autism and they can't afford to 
take care of them, and yet the fund that we have created to 
take care of these people that are contaminated by this isn't 
doing a thing to solve the problem.
    So you can tell I am pretty upset about it, because I have 
watched it. I have watched thousands of mothers come out here 
and show us their kids who are mentally retarded because of 
this. I have talked to people who can't eat fish when they are 
pregnant because they are afraid their child will be hurt by 
the mercury in the drinking water. And yet we continue to pour 
it into our system, pour it into our drinking water, and the 
Federal Government doesn't do anything about it.
    And yet I could read to you what the FDA says. For the 
first time ever, the FDA publicly admitted that dental amalgam 
contains highly toxic mercury and they did put warnings on the 
labels. So if they put warnings on the labels, why don't they 
put it in the dentist's office so people know when they go in 
there? Why don't they tell us. That is not that expensive, a 
little cardboard saying there is mercury in these things.
    And so I think the FDI challenged the FDA after me being 
chairman here for 6 years and being on this committee now for 
over 25 years, tell the people. Let the people know the facts 
and the country will be safe. I think somebody important said 
that. I think it was Abraham Lincoln. Let the people know the 
facts and the country will be saved, and, not only that, their 
lives might be saved.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.015
    
    [GRAPHIC] [TIFF OMITTED] T5133.016
    
    [GRAPHIC] [TIFF OMITTED] T5133.017
    
    [GRAPHIC] [TIFF OMITTED] T5133.018
    
    [GRAPHIC] [TIFF OMITTED] T5133.019
    
    [GRAPHIC] [TIFF OMITTED] T5133.020
    
    [GRAPHIC] [TIFF OMITTED] T5133.021
    
    Mr. Kucinich. Thank you, Mr. Burton.
    Mr. Burton. Thank you, sir.
    Mr. Kucinich. The Chair recognizes Mr. Cummings.
    Mr. Cummings. Good afternoon.
    Ms. Stoner. Good afternoon.
    Mr. Cummings. I was listening to my friend, Mr. Burton, and 
on the one hand he says Government needs to stay out of the 
business, to keep a certain distance; on the other hand, he 
says we do need to have some regulation here, and I agree that 
we do. That leads me to these questions.
    As part of the 2002 effluent guidelines planning process, 
EPA is committed to examining the use of amalgam separators by 
dentists; is that right?
    Ms. Stoner. Yes, sir.
    Mr. Cummings. In the 2008 guidelines for new and existing 
industrial pollution discharges into surface waters into 
publicly owned treatment works, the EPA decided to exclude 
dental offices from the scope of the guidelines; is that 
correct?
    Ms. Stoner. Well, EPA decided not to move forward with the 
effluent guidelines at that time. Yes, Congressman.
    Mr. Cummings. And so, in other words, dental offices were 
excluded? I mean, I am not trying to put words in your mouth. I 
am going somewhere, but I want to make sure you are going with 
me.
    Ms. Stoner. The only thing I am trying to say is that a 
permanent exemption, nothing like that was done. What we 
decided was not to move forwards with a rulemaking at that 
time, and that is the issue that we are examining again this 
year in our Effluent Guidelines Plan.
    Mr. Cummings. So what would be the criterion needed for 
dental offices to be included, say, in the 2010 guidelines?
    Ms. Stoner. Well, I think what we would do is look at the 
various different sectors that need either new or revised 
technology-based standards and compare this to others in terms 
of the importance of the agency moving forward with a 
technology-based standard.
    Mr. Cummings. And what would be the methodology for getting 
there? I mean, in lay terms.
    Ms. Stoner. Well, I think that what the Agency does is look 
at the size of the problem. Obviously, we have been talking 
about methylmercury and the health issues associated with that, 
which are very significant and serious. We have been looking at 
the contribution that comes from this source versus other 
sources.
    We would be looking at, for example, how the problem is 
developing over time, what the trend analysis is in terms of 
either the substitutes for dental amalgam or the use of 
separators. We would be figuring out whether this is the best 
thing to put the Agency's resources on in terms of protecting 
human health and the environment. That is the decision that we 
need to make in that plan.
    Mr. Cummings. So right now I guess you are telling me you 
don't have enough information? Is that it, in spite of what Mr. 
Burton just said?
    Ms. Stoner. Well, we have done some initial work on it, but 
I would say that we need to gather additional information. That 
is right, Congressman.
    Mr. Cummings. And, assuming that what Mr. Burton said was 
true, let's just assume that hypothetical, do you think dental 
offices would be excluded or included at that juncture, 
assuming what he just said is true?
    Ms. Stoner. Again, I think it depends on how many effluent 
guidelines we are able to do and how this compares to other 
risks.
    Mr. Cummings. Now, in implementing the 2001 guidance; are 
you familiar with that?
    Ms. Stoner. Yes, sir, I am.
    Mr. Cummings. Who had input into that document, and what do 
you hope it will accomplish?
    Ms. Stoner. Let me check on the first question.
    Mr. Cummings. OK.
    Ms. Stoner. [Consults with audience member.] That document, 
it is guidance for how to use the water quality criteria that 
we developed for methylmercury. It helps States to set 
standards, water quality standards for methylmercury to protect 
the public. It did go through a public comment process, so we 
got comments from a wide range of stakeholders on that 
document.
    That is what it is for, so what we are trying to do through 
that document is to help States through the technical issues 
associated with setting a water quality standard. They can then 
use those standards also to set limits for sewage treatment 
plants, and the sewage treatment plants can use that to set 
limits for the dentists that discharge into those sewage 
treatment plants. So it is another method under the Clean Water 
Act to protect the public by reducing pollution.
    Mr. Cummings. I see my time is up. Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman. We are going to go to 
a second round of questions to Ms. Stoner.
    Prior to signing the memorandum of understanding with the 
American Dental Association and the Organization for Publicly 
Owned Water Treatment Facilities, the EPA made a finding that 
dentists were voluntarily moving toward adopting amalgam 
separators. On the basis of that finding, EPA exempted 
dentists' offices from mandatory effluent guidelines. I would 
like to ask about the EPA's basis for excluding dentists' 
offices from its mandatory effluent guidelines.
    The ADA submitted a letter to the water docket in 2007--
that is comments on the EPA's study of a pre-treatment 
requirement for dental offices--which made eight arguments in 
favor of excluding dentists' offices from mandatory 
requirements. In essence, that letter states, as ADA's 
testimony today repeats, ``dentists can and will act on their 
own.''
    Did EPA take into account contrary evidence that dentists 
are slow to voluntarily act on their own? For instance, did EPA 
consider the Quicksilver Caucus's April 2008 report on mercury 
separator usage, which noted that nearly all jurisdictions that 
started with purely voluntary regulations ended with mandatory 
regulations because the voluntary ones don't work? That finding 
was similar to the conclusion of a report published by this 
subcommittee in September 2008. So what do you say to that?
    Ms. Stoner. I wasn't involved in that particular decision, 
but----
    Mr. Kucinich. But what do you think?
    Ms. Stoner. I am confident that the Agency is aware that 
mandatory requirements--as a matter of fact, the information is 
available today that shows that in States where there are 
mandatory requirements there is more use of amalgam separators 
than there is in States where the programs are voluntary, and 
that is consistent with the Agency's experience in a lot of 
different areas. You will have more widespread compliance if 
you actually have a mandate. I think that is pretty well 
demonstrated.
    Mr. Kucinich. Well, it might be pretty well demonstrated, 
but that is not where the EPA was, because they exempted 
dentists' offices from mandatory effluent programs, so, using 
your logic, of course mandatory, but that is not what EPA did.
    Ms. Stoner. EPA did not grant a permanent exemption to----
    Mr. Kucinich. What was their basis for excluding dentists' 
offices from mandatory effluent guidelines in the first place?
    Ms. Stoner. I would prefer to get back to you in writing on 
that.
    Mr. Kucinich. OK. That would be fine.
    Ms. Stoner. Because it was a decision I was not involved 
in.
    Mr. Kucinich. I will look forward to reading it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.022
    
    [GRAPHIC] [TIFF OMITTED] T5133.023
    
    [GRAPHIC] [TIFF OMITTED] T5133.024
    
    [GRAPHIC] [TIFF OMITTED] T5133.025
    
    [GRAPHIC] [TIFF OMITTED] T5133.026
    
    [GRAPHIC] [TIFF OMITTED] T5133.027
    
    [GRAPHIC] [TIFF OMITTED] T5133.028
    
    [GRAPHIC] [TIFF OMITTED] T5133.029
    
    [GRAPHIC] [TIFF OMITTED] T5133.030
    
    [GRAPHIC] [TIFF OMITTED] T5133.031
    
    [GRAPHIC] [TIFF OMITTED] T5133.032
    
    [GRAPHIC] [TIFF OMITTED] T5133.033
    
    [GRAPHIC] [TIFF OMITTED] T5133.034
    
    [GRAPHIC] [TIFF OMITTED] T5133.035
    
    Mr. Kucinich. Now will you look at the screen please? Ms. 
Stoner, this graph depicts the actual sales trends of mercury 
separators to dentists by the largest manufacturer in the 
Nation. Sales pick up dramatically just prior to mandatory 
regulations kicking in, which is depicted by the shaded column. 
Is not this evidence that dentists respond to mandatory 
regulations requiring adoption of mercury separators?
    Ms. Stoner. I would agree that appears to show that. Yes, 
sir.
    Mr. Kucinich. Well, I would like you to look at the trend 
lines to the left of the shaded bar there. I would like you to 
look at it closely.
    Ms. Stoner. OK.
    Mr. Kucinich. I would like you to look at the trend lines 
to the left of the shaded box.
    Ms. Stoner. OK.
    Mr. Kucinich. See how the purchase rate is? See how the 
purchase rate decreases the further away you go from the shaded 
bar? That is the voluntary period that preceded the mandatory 
requirements. So there is evidence here that dentists don't 
generally adopt mandatory separators on a voluntary basis.
    Ms. Stoner. There is some----
    Mr. Kucinich. Would you agree?
    Ms. Stoner. There is certainly some variation, but in 
general the sales certainly go up after the regulation date, 
effective date. That is correct.
    Mr. Kucinich. And if you look at the voluntary period, you 
have mandatory regulations, compliance goes up; voluntary 
regulations don't appear to go, appear to be low compliance, 
right?
    Ms. Stoner. I can't really tell what the voluntary program 
is that precedes the bar, but it certainly looks like the 
regulation makes the sales go up. That I can tell.
    Mr. Kucinich. So don't you think that this shows voluntary 
efforts by dentist trade associations since the signing of the 
memorandum of understanding--excuse me. I am going to go to Mr. 
Jordan.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.036
    
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Stoner, did you agree with my good friend and 
colleague, Mr. Burton, his analysis of the situation, his 
conclusion on the situation?
    Ms. Stoner. I thought he made a number of excellent points. 
Certainly his points about the dangers associated with 
methylmercury are well taken. I also thought his point about 
people being probably less likely to get amalgam fillings if 
they had better information about the mercury in amalgam 
fillings was also a compelling point.
    Mr. Jordan. Then I think the chairman's question is the 
$64,000 question. If, in fact, EPA thinks it is that bad--and I 
don't know. I think the EPA over-reaches on a lot of things--
if, in fact, you think Mr. Burton's analysis is correct, why 
the decision on the memorandum of understanding, why was that 
made?
    Ms. Stoner. Again, I----
    Mr. Jordan. I mean, if this is as terrible as my good 
friend points it out to be, it seems to me you would be making 
the rules, doing the things that you think are going to protect 
us. I mean, that is the big question. We would like an answer.
    Ms. Stoner. Right. There is----
    Mr. Jordan. I don't know if it is right or wrong. Look, 
based on what you just said in response to Mr. Burton's 
statements, it seems to me we need that answer.
    Ms. Stoner. I think there are two different things we are 
talking about, one of which is the use of dental amalgam by 
patients, and that is a decision that is partly environmental 
and partly medical, and we think that the FDA is better 
situated to make that decision.
    Mr. Jordan. Let me clarify. So you think mercury in some 
other forms, what Mr. Burton had to say is right on target, but 
specifically to the filling put in the patient's teeth while 
they are in the dental office doesn't rise to that, maybe not 
as bad as Mr. Burton might have said. Is that your conclusion?
    Ms. Stoner. No.
    Mr. Jordan. It would seem to be so, based on what the EPA's 
decision has been.
    Ms. Stoner. OK. Well, I may not be making myself clear, so 
let me try to do better. What I am saying is that the EPA is 
not in the lead role in deciding what dentists use in the 
dentistry that they practice. There are other agencies that are 
better situated to make decisions about those medical issues. 
EPA is looking at the issues of mercury emissions, air 
emissions, and mercury in wastewater discharges, and what I am 
saying is that it is a concern. Mercury in wastewater discharge 
is a concern, and that is one that we are evaluating at the 
Agency, along with other pollutants of concern that cause human 
health or environmental impact.
    Mr. Jordan. But I just want to be clear. The memorandum of 
understanding is between the EPA and the ADA, correct?
    Ms. Stoner. Yes, sir, but it is not about the use of dental 
amalgams. It is about use of amalgam separators. That doesn't, 
either way, whether the patient uses dental amalgam or some 
other kind of cavity, I am not a dentist, but some other kind 
of filling, then the mercury would be captured in the amalgam 
and it would then stay out of the sewage treatment plant and 
stay out of the wastewater of the sewage treatment plant. That 
is what our agreement is about.
    Mr. Jordan. OK. Thank you, Mr. Chairman.
    Mr. Kucinich. Mr. Burton.
    Mr. Burton. First of all, I appreciate your acknowledging 
some of the things that we talked about. I appreciate that, Ms. 
Stoner.
    The one thing that kind of bothers me is one agency kind of 
passing the buck to another agency and back and forth and back 
and forth. I had people from the HHS and FDA before the 
committee, and when my grandson became autistic I said, would 
you mind if I injected you with the amount of thimerosal with 
mercury in it that my grandson got in 1 day, and they said it 
wouldn't affect them but they wouldn't want it injected it into 
them. It was kind of an interesting answer they had.
    But here is the position the FDA has taken. For the first 
time ever, the FDA publicly admitted that dental amalgam 
contains highly toxic mercury and therefore requires a variety 
of warnings on the product label. That is clearly a significant 
improvement over the FDA's former position that mercury 
amalgams are 100 percent safe. That was their previous 
position.
    Unfortunately and inexplicably, new warning requirements 
have nothing to do with patient safety. It is just putting it 
on the label on the product. And the FDA still does not require 
dentists to warn patients in any way about the harmful 
neurotoxins in the dental amalgam.
    Considering the fact that in 2006 the FDA's own panel of 
outside experts concluded that it is ``not reasonable for the 
FDA to have the position that mercury amalgam fillings are 
safe.'' How can the FDA not insist that dentists warn patients 
about the dangers? They had this outside group come in and look 
at it, and they said, well, we can't take the position that it 
is safe, which means there is a real question about whether or 
not it is safe.
    Now, if dentists want to go ahead and continue to use that, 
then I think the obligation is clear: let the patients know 
that it is in there. And 90 percent of the people who have 
dental fillings that are amalgams do not know that it has 
mercury in them, and so they are being exposed without their 
knowledge.
    I think the thing that has bothered me the most is that we 
are having such opposition from the dentists, because they are 
getting information from the FDA and HHS that says this is not 
harmful, and yet they are not supposed to flush it down the 
drain, and they know that it is toxic if they get it on them 
before they put it in the mouth and they mix it all up, but 
they have been told that it is not harmful. And so the dentists 
I think rightfully say, Why are you telling us what to do when 
the FDA and HHS says there is no problem?
    And so the dentists say guys like me are nuts. Maybe that 
is true. I don't know. But the fact of the matter is they are 
now starting to admit that there is a serious problem.
    So what I can't understand is why the FDA and HHS and the 
EPA don't get together in a panel and sit down and say, How do 
we make sure that this is properly regulated and properly 
brought to the attention of the American public? I would 
suggest that is something that should be done. EPA has the 
authority, FDA has the authority to do a lot of these things.
    The other thing I would like to say before my time is up. I 
talk to the pharmaceutical companies, the presidents of these 
companies, major companies, Merck, Eli Lilly, a whole bunch of 
them, and I said, If you will put more money into the vaccine 
injury compensation fund to help people who have been damaged, 
if you will get mercury out of all the vaccines, adult and 
children, and they can do that in an economical, satisfactory 
way, then I will introduce legislation that will protect you 
from class action lawsuits. I will do everything I can to make 
sure that you are not going to face any harmful financial 
problems because of past experiences.
    Now, when I said that one out of 10,000 people used to have 
autism, kids, now it is one in less than 100, we know there is 
a big problem. So if we protect the pharmaceutical companies by 
giving them protection from class action lawsuits if they will 
do these things, get the mercury out and put more money into 
the vaccine injury compensation fund, I don't know why they 
won't do it.
    And I will do the same thing for the dentists. If dentists 
are afraid that they are going to be sued by people that have 
neurological problems that they allege came from amalgams that 
they used in filling their teeth, I will do everything I can to 
protect them, as long as we get the mercury out of the product 
and get it out of people's mouths. Until that time, I hope that 
the EPA, the FDA, and HHS will get together and come up with 
some way to make sure the public is aware of what is going on. 
OK?
    Ms. Stoner. Thank you.
    Mr. Burton. Would you carry that message back?
    Ms. Stoner. Yes, sir, I will.
    Mr. Burton. Thank you very much.
    Mr. Kucinich. We are going to begin the third round of 
questioning. There will be a final round of questioning of this 
witness.
    Before I begin, I just want to say to my colleague, Mr. 
Burton, I just want to say before we begin the third round of 
questions that I have watched for years your advocacy on this 
and other health issues, and I am proud to serve with you in 
this Congress.
    Mr. Burton. Thank you, Mr. Chairman. I really appreciate 
it.
    Mr. Kucinich. You have really been outstanding and 
courageous in your pursuit of the questions underlying the 
effects of mercury in vaccines and a whole range of areas, and 
I really appreciate it.
    Mr. Burton. Thank you very much. I wish you would call my 
wife and tell her that. She doesn't appreciate it. [Laughter.]
    A little levity won't hurt.
    Mr. Kucinich. Anything I can do to help you, Mr. Burton, I 
will be glad to.
    Now I am going to go to a final round of questions of this 
witness.
    I am concerned that EPA signed a memorandum of 
understanding with someone who can't make the change the 
memorandum of understanding seeks. When my staff spoke with a 
top official at the ADA about steps ADA has taken to measure 
the effectiveness of its outreach campaign such as tracking if 
dentists are using best management practices or even viewing 
the brochure produced, we learned that the ADA is not even 
tracking that.
    How can ADA optimize its efficacy in promoting compliance 
with its best management practices if it doesn't track 
dentists' compliance with its best management practices, or 
even whether they look at its brochure?
    Ms. Stoner. I agree with you, Congressman. It would be 
better to have more outreach and more installation of those 
amalgam separators.
    Mr. Kucinich. What we are seeing is a perfunctory 
performance here. We have learned that just this month ADA held 
a conference in Chicago for Illinois dentists on the topic of 
limiting mercury pollution from dental offices. The results 
weren't particularly impressive. Of the 8,500 dentists in the 
State of which 6,600 are members of the State Dental Society, 
only 21 came to the conference.
    Now, Ms. Stoner, I am calling this to your attention 
because I think it is worth you looking at the ADA's outreach 
efforts and to see if they can be more encouraging.
    You have a report from the Quicksilver Caucus of the State 
EPA offices, a report from this subcommittee, and the most 
recent sales data of the largest seller of mercury separators 
all showing that dentists are not, in fact, voluntarily 
adopting mercury separators in significant numbers, yet the 
memorandum of understanding depends upon their doing so.
    Can they demonstrate the importance of a realistic prospect 
for mandatory requirements for obtaining dentists' adoption of 
amalgam separators? I am wondering what procedure EPA would 
follow to reconsider its exemption of dentists' offices from 
effluent guidelines?
    Ms. Stoner. We will be gathering additional information. We 
agree with you about the need to get additional information in 
order to make a determination, and we have committed to doing 
that, including from the manufacturers.
    Mr. Kucinich. I am wondering why you wouldn't strongly say 
right now that you intend to rescind the dentist office 
exception as of, say, the 2012 effluent guidelines unless you 
see verifiable compliance with the memorandum of understanding 
goals in 2010 and 2011?
    Ms. Stoner. We have a process we have to go through on the 
effluent guidelines planning, and I don't want to get ahead of 
that process, so we are committing to you that we will look at 
it in that process and make a determination.
    Mr. Kucinich. Ms. Stoner, we have a process here, too, and 
what is noteworthy is that there is nothing that is separating 
individuals from both political parties who are determined to 
get to the truth of exactly what is happening here. So I 
understand about your process. Our process here is going to 
continue to go deeply into what I personally feel are the 
shortcomings of the EPA's responsibility in this regard. And I 
come to this not as someone who is a consistent foe of the 
Environmental Protection Agency. I am a friend. And I am such a 
good friend that if I see something wrong I am going to tell 
you.
    The Chair recognizes Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. I will just be real 
brief and we will get to the second panel. I want to talk with 
the witness from the ADA.
    The chairman, in his comments, talked about the fact that 
only 21 dentists I believe showed up at a conference in 
Illinois. While the conference obviously was important to talk 
about mercury, I would just remind members of the committee 
that these guys are small business owners. They have to attend 
to their practice. They have to attend to meeting the needs of 
their patients in their communities. It is not always easy just 
to pack up and go. So I think there is a balance we have to 
keep in mind as we look at this whole issue and evaluate what 
is the best means and best process as we move forward.
    As I said, Mr. Chairman, I will yield back and wait for the 
second panel.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes Ms. Watson.
    Ms. Watson. Mr. Chairman, I want to thank you. I also want 
to thank Member Burton, who is not in the room at the moment. 
We have been working on this issue ever since I have been here, 
and I am completing my 10th year and I will be retiring after 
this year. I worked on this same issue on mercury pollution 
when I was chairing the Health and Human Services Committee in 
California for 17 years. I finally had a Governor that 
appointed a dental board who looked at the dental amalgams and 
said we see some problems here. That particular Governor was 
recalled and this has been hidden again.
    So what I want to do, I will wait until the second panel 
comes up, and I would like to read my opening statement if I 
may.
    I yield back my time.
    Mr. Kucinich. And I would just say to the gentlelady, if 
she would like to read her opening statement now, so that Ms. 
Stoner will have the benefit of hearing it, and then when you 
conclude I will call the second panel.
    Ms. Watson. Thank you so very much.
    Mr. Kucinich. Without objection.
    Ms. Watson. I have been a staunch opponent of mercury 
amalgams. For those of you that do not know what an amalgam is, 
it is a substance that you put into a cavity to fill it, and it 
is what is in that amalgam. The amalgam looks like silver, it 
is 50 percent mercury. SB 65 in California of about 20 years 
ago rates mercury as the most toxic substance in the 
environment. So I have been an opponent of mercury amalgams 
since my days in the California State Senate, where I helped 
pass a law that requires a fact sheet about dental fillings 
being given to consumers without any information about what is 
being put into their mouth.
    I believe that it is very important, it is essential for 
consumers to know about the toxins they are putting into their 
bodies, especially when it is one that implanted into their 
mouths and helpless children's mouths and senior citizens, and 
could possibly affect them for the rest of their lives.
    For this reason, this Congress I introduced the CHOMP Act, 
H.R. 4615, CHOMP. This bill will require dentists to give 
consumers a fact sheet prepared by the Food and Drug 
Administration outlining the dangers of each type of filling.
    Now, you know in California, and I would hope in the rest 
of the country, we are concerned about the atmosphere. We were 
the first State to outlaw and ban smoking on airplanes in 
California air space. It took us 14 years to do that, and then 
the rest of the country followed, and now it is global.
    Now, I am sure that we all know that mercury is one of the 
most toxic substances. If you don't know, we are going to tell 
you. Third on the CERCLA list of toxic chemicals. We also know 
that amalgam releases sufficient amounts of mercury that can be 
absorbed by our bodies.
    That is the reason why, if you are in California, you are 
warned not to eat tuna along the western coast of southern 
California, because in a dental office what do you do with the 
waste? You put it into a tube. It goes right out into the plant 
and into the ocean and gets into the sea life and gets into the 
shell life and so on. That is a fact.
    Mercury poisoning has been shown to cause mental disorders, 
autoimmune disorders, and other chronic illnesses. It is 
thought that mercury also plays a role in Alzheimer's disease 
and in MS. It is a documented fact that mercury can also 
transfer from pregnant women through the placenta to the 
developing fetus. Children and fetuses are especially at risk 
because of the developmental risk posed by mercury, yet women 
who are pregnant or plan on becoming pregnant are not told of 
the risk associated with their new mercury fillings. Everyone 
likes to show their new fillings. Look at this silver I have in 
my mouth.
    So informing the consumer is the right thing to do. I think 
everyone needs to know what is added to whatever they put in 
their body, because you know if you look at cigarettes and 
tobacco, it tells you what it can do to your health, and I 
think you make the choice. You suffer the consequences.
    I know that many of these ill effects are real. In my time 
fighting for this issue I have met so many people who have told 
me their health histories, of being constantly fatigued after 
getting their mercury amalgam fillings, of their lives being 
crippled by chronic headaches, of being told that they have an 
unknown autoimmune disorder only to be relieved of their 
troubles after they removed their mercury amalgam fillings.
    I sit in front of you as a witness and a victim. I had my 
mercury amalgams, Mr. Chair, put into my mouth when I was 9 
years old. My father was a police officer, so he could 
practically get it done free. I have suffered from allergies 
all of my life until an investigating team from abroad came in 
and they said, my God, you are suffering from mercury 
poisoning.
    I went to my dentist, asked him to remove, and he would 
not. Very few people know how to do it. I had to go to Mexico, 
Ms. Stoner, and it took me 6 weeks and was very expensive. It 
has changed my life. It has changed my looks. And it changes 
the aging process, I can tell you that. I can tell you that. 
And the doctor who did it was educated here, and he would not 
do the mercury fillings that were required at his university, 
so he left and went to the University of Mexico, and he lives 
here in the States and goes over the border to practice, 
because dentists will tell me now. I didn't get the backing of 
the EPA, so that is the situation. It really made a difference.
    He didn't give me medication, he gave me herbs. He told me 
take these herbs until you clean your system. I tell you, it 
has made a difference. People have accused me of having a face 
lift. No. I took the mercury out, and I tell everyone I can, 
remove your mercury amalgams.
    So in response to the CHOMP Act the American Dental 
Association, quoting the FDA, issued a statement saying that 
mercury amalgams are safe. That is a lie. Quote me. And if 
there is any press in this room, quote me, please. I have the 
facts. You can come to my office. I will share this with you.
    We have done research nationally and internationally. We 
are killing ourselves because, as one group of dentists said to 
me, people of color don't like to go to the dentist. So that is 
the reason why we continue to use amalgams, because they are 
safely combined and well filled. I said, do you ever consider 
that kids go skating or biking and they fall and crack their 
teeth? Happens every day. Do you ever consider that they get 
teeth pulled out? Happens every day.
    If you want a test, there is a probe you can put in your 
mouth and you can see the vapors from the mercury going to your 
T-zone. What is at the top of your T-zone? Yes. I see a lady in 
the back. She says, What's at the top of your T-zone? Your 
brain. And what is covering your brain? A thin skin called the 
meninges. And guess what? Mercury affects the meninges of the 
brain.
    So why do so many of our children do poorly in school? 
Because they chew on paint on their cribs that have lead in it, 
and the mercury that they put in 9 years old in their teeth 
also goes up.
    So just think about that. We are going to find why so many 
women are having cancer and breast cancer now. It is something 
we add in or something in that can and so on. We are going to 
continue to do the research until we can convince that mercury 
has no place in the human body.
    Now, if you read FDA's rule, FDA, itself, admits that the 
report that was published by the Trans-Agency Working Group on 
the Health Effects of Dental Amalgam in 2004 concluded that 
there were ``important data gaps, including whether low-level 
mercury vapor results in neurotoxicity.'' I am a witness and I 
will testify on any stand to it. Also, studies that have been 
performed do not account for mercury from other sources, nor 
are they sufficiently long term. That is why we need to inform 
people so they can make their own choices.
    We have for years informed and warned consumers about the 
risks of consuming fish with a high mercury content. Now we are 
learning that dentists' offices contribute approximately--get 
this--50 percent of mercury in wastewater, much of which makes 
it into the environment. In 2002 a report from the University 
of Chicago concludes this number could be as high as 70 
percent.
    After the passage of the mercury ban by then-Senator Obama, 
it is baffling that we still allow dentists to pollute our 
water and air with mercury. Mercury has vapors that are always 
being emitted, always being emitted, especially when they can 
install a $500 mercury separator that has the ability to 
capture more than 90 percent of the mercury waste. I have been 
thinking so much about how our sea waters now are polluted down 
in the Gulf because of the escaping oil, and they are trying to 
break it up, and whatever they are putting in to break up the 
modules, killing the fish and the birds and so on. We need to 
be more proactive and wiser.
    Additionally, dental mercury amalgams contribute to the 
mercury burden in the environment through a very unlikely 
source, and that is crematoriums. As dentists continue to 
install mercury amalgams into mouths, these installations 
release mercury into the air during the cremation. Is there no 
end to the ill effects of mercury, right to the end of the life 
process and the disposal of the bodies?
    So in conclusion, Mr. Chairman, I want to say that I firmly 
believe that mercury amalgams should not be used. If the ADA is 
going to insist on their continued use, then dentists have the 
obligation to inform their patients in advance, and dentists 
also have the obligation to prevent environmental harm, 
remember, you take that Hippocratic Oath, by installing mercury 
separators as a voluntary program has not worked. It is time 
the EPA takes the initiative to regulate mercury in water and 
air, and one very important aspect of that air is the pollution 
of mercury amalgam.
    Mr. Chairman, I really want to thank you and the minority 
Member again for holding this hearing. As you can hear, I am 
very emotional about this issue. Thank you.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.037
    
    [GRAPHIC] [TIFF OMITTED] T5133.038
    
    [GRAPHIC] [TIFF OMITTED] T5133.039
    
    [GRAPHIC] [TIFF OMITTED] T5133.040
    
    [GRAPHIC] [TIFF OMITTED] T5133.041
    
    Mr. Kucinich. I thank the gentlelady for her testimony.
    Thank you, Ms. Stoner, for your presence and joining us and 
listening to Ms. Watson's statement.
    I want to thank Mr. Jordan for being here. You are welcome 
to come back, if you are able to, from your busy schedule.
    Ms. Stoner, you are dismissed as a witness.
    Ms. Stoner. Thank you.
    Mr. Kucinich. We want to invite the other witnesses to come 
forward.
    While the witnesses are coming forward, I would like to 
make the introduction of our second panel.
    Mr. William Walsh is of counsel, Pepper Hamilton, LLP, 
where he heads that office's environmental practice group, and 
he is representing the American Dental Association. Before 
1986, when he joined Pepper, Mr. Walsh served as Section Chief 
of the U.S. EPA Office of Enforcement as lead EPA counsel on a 
precedent-setting hazardous waste lawsuit brought against 
Occidental Chemical Corp. concerning Love Canal and related 
landfills.
    Next will be Mr. R. Steven Brown, the executive director of 
the Environmental Council of the States, the national 
nonpartisan association of the States' environmental agency 
leaders. Mr. Brown helped form the Environmental Council of 
States in 1993. Previously he worked with the Council of State 
Governments as its chief environmental staff and with private 
engineering firms in the Kentucky Environmental Agency. He has 
34 years of experience in State environmental matters. As the 
chief executive of ECOS, Mr. Brown has been closely involved in 
its mercury policy matters for the last 10 years, including the 
work of the Quicksilver Caucus and mercury policies of the 
association.
    Another witness that we were anticipating, Mr. Alfred Dube, 
who is National Sales Manager of SolmeteX, had to cancel his 
appearance here today due to death in the family. Without 
objection, I ask unanimous consent to include Mr. Dube's 
statement in the record of hearing, and this committee sends 
its condolence to him on the death in the family.
    [The prepared statement of Mr. Dube follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.042
    
    [GRAPHIC] [TIFF OMITTED] T5133.043
    
    [GRAPHIC] [TIFF OMITTED] T5133.044
    
    [GRAPHIC] [TIFF OMITTED] T5133.045
    
    [GRAPHIC] [TIFF OMITTED] T5133.046
    
    [GRAPHIC] [TIFF OMITTED] T5133.047
    
    Mr. Kucinich. Mr. Alexis Cain is an environmental scientist 
with the U.S. EPA Region 5 Air and Radiation Division. Mr. Cain 
holds a Master's in International Affairs from American 
University, Master's in Environmental Studies from Yale. He has 
been with the U.S. EPA for 15 years. He works on mercury 
control efforts including as the U.S. co-lead from the Great 
Lakes Bi-National Toxic Strategy and on the development of 
mercury reduction strategies under the Great Lakes Regional 
Collaboration. He is testifying before this subcommittee on his 
own behalf and his testimony is not in his official capacity 
and he does not represent the positions of the EPA. I wanted to 
make sure that disclaimer is put out there.
    Mr. John Reindl is a retired professional engineer who 
worked for Dane County, Wisconsin, as their recycling manager 
for many years, including on programs to reduce the flow of 
mercury to the environment from products. He has researched and 
written on mercury air emissions from crematoria. His reference 
paper on crematoria, which is updated on an ongoing basis, has 
over 130 references to both literature and discussions with 
people everywhere. The Mercury Policy Project was formed in 
1998 and works to promote policies to eliminate mercury uses, 
reduce the export and trafficking of mercury, and significantly 
reduce mercury exposures at the local, national, and 
international levels. That is certainly due, in great part, to 
the initiation work of Mr. John Reindl.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. Let the record reflect that each 
of the witnesses has answered in the affirmative.
    I would ask that each witness give an oral summary of your 
testimony. Keep this summary, if you would, to 5 minutes in 
duration. Your complete written statement will be included in 
the hearing record.
    Mr. Walsh, you are our first witness on this panel. I ask 
that you proceed, and thank you for being here.

STATEMENTS OF WILLIAM WALSH, OF COUNSEL, PEPPER HAMILTON, LLP, 
    REPRESENTING AMERICAN DENTAL ASSOCIATION; STEVEN BROWN, 
 EXECUTIVE DIRECTOR, THE ENVIRONMENTAL COUNCIL OF THE STATES; 
 ALEXIS CAIN, SCIENTIST, U.S. ENVIRONMENTAL PROTECTION AGENCY, 
       REGION 5; AND JOHN REINDL, MERCURY POLICY PROJECT

                   STATEMENT OF WILLIAM WALSH

    Mr. Walsh. I am William Walsh, outside counsel for the 
American Dental Association on amalgam wastewater issues. On 
behalf of the ADA's more than 157,000 member dentists, thank 
you, Mr. Chairman, and committee members for the opportunity to 
discuss the memorandum of understanding with EPA.
    Prior to that MOU, the ADA met periodically with EPA urging 
a national voluntary program to reduce dental amalgam in 
wastewater and implement educational programs and take other 
actions. Even without amalgam separators, approximately 99 
percent of the amalgam is captured either in the office by 
other parts of the plumbing system or in the sewage treatment 
plant, which captures prior to discharge into the rivers, a 
substantial amount, 95 percent of the mercury that enters that 
is related to amalgam.
    Now, let me make it clear, because my earlier testimony in 
the last hearing I was less clear. There is a large amount of 
mercury that goes into the sewage treatment plant. The ADA has 
done studies: 50 percent, and maybe more in some places, less 
in others, but because the POTW captures in the biosolids, what 
goes out into the streams is less than that. But separators 
will reduce that somewhat if implemented.
    In 2007 EPA was studying whether the release of dental 
office wastewater into sewers warranted the issuance of an 
enforceable pre-treatment standard. The ADA filed public 
comments consistent with its earlier comments explaining why no 
such standard was necessary, in part because the dentists can 
and will act on their own. For example, the ADA had added 
separators to its best management practices in 2007. We asked, 
as we had in the past, to work with EPA on this issue. In 
response, EPA contacted us in early 2008 and proposed an MOU to 
promote the use of separators.
    EPA's consultant had estimated that approximately 40 
percent of the dentists in the United States were using 
separators, but I think the report made it clear that was an 
estimate for the purposes of the regulation and the information 
was uncertain.
    The MOU required ADA to prepare a baseline report on the 
number of separators in use. Based on numerous data sources, 
including surveys of ADA members, we determined information 
concerning the number of separators and the percentage of 
separators being used, in essence tracking as of 2009 what the 
compliance of dentists were with separators. We looked both at 
States where there are mandatory requirements as well as 
voluntary requirements.
    Unfortunately, as we pointed out to EPA and the National 
Association of Clean Water Agencies, the data is somewhat 
contradictory and incomplete, and there wasn't a clear answer 
from the various surveys and various sources of information, 
and that more information may be necessary from the 
manufacturers, and EPA decided to seek additional data from 
manufacturers.
    Without a baseline, developing a progress goal has been 
difficult. Nevertheless, the parties have agreed upon, and I 
should say this agreement has come after some of the other 
testimony that has been submitted here today, so the testimony 
of ECOS, for example, talks about a goal not being set.
    We have reached a goal that in the first 12 months after 
setting the goal, that 20 percent of the dentists in 
jurisdictions where there is no mandatory requirement would 
have separators. The next 12 months after that, an additional 
25 percent would have to meet, be shown through surveys with 
the separator manufacturers, to meet the requirement of having 
a separator, and every 12-month period after that another 25 
percent, until 100 percent is met or some plateau is reached.
    These are absolute numbers. If the baseline is determined 
to be 20 percent, our goal is 40 percent in 12 months and 65 
percent in 2 years.
    We are only counting for the purpose of compliance those 
dentists in voluntary areas, although obviously a number of 
dentists in the States where there are mandatory requirements 
would be additional number of separators.
    This voluntary approach should be successful, in our 
opinion, because it is directed at dentists as health 
professionals. We think that is important in communicating a 
voluntary program from a familiar source, the ADA, using all of 
its communication outlets, and the same communication from EPA 
and from the Sewer Authority Association. It is based on the 
lessons learned from previous unsuccessful voluntary efforts, 
and there is no question that some of the earlier efforts were 
not successful.
    It recognizes that if voluntary efforts fail, nothing in 
the MOU, in fact, the MOU specifically provides EPA, the 
States, or the local agencies the authority now to continue to 
go ahead, regardless of what is happening with the MOU, with 
any mandatory program that they so decide. That was 
deliberately put in there and agreed upon by all the parties 
from the beginning so we would not compromise the authority of 
the States or local authorities or EPA, if EPA in its 
discretion decided that it was insufficient.
    Mr. Kucinich. Mr. Walsh, I am going to ask you if you could 
summarize, because I asked the witnesses to go for five. I have 
let you go for a little bit more than that.
    Mr. Walsh. I have concluded. We have sought to do our fair 
share, and that is what we are trying to do.
    Thank you, sir.
    [The prepared statement of Mr. Walsh follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.048
    
    [GRAPHIC] [TIFF OMITTED] T5133.049
    
    [GRAPHIC] [TIFF OMITTED] T5133.050
    
    [GRAPHIC] [TIFF OMITTED] T5133.051
    
    [GRAPHIC] [TIFF OMITTED] T5133.052
    
    Mr. Kucinich. Thank you.
    Mr. Brown.

                   STATEMENT OF STEVEN BROWN

    Mr. Brown. I am here representing the Environmental Council 
of States, you have already explained what that is, and also 
the Quicksilver Caucus, which is a group of associations of 
State environmental officials that are interested in mercury.
    There are three primary things I want to talk with you 
today, and fortunately the committee has already added several 
of them extensively, so I am going to cut my remarks somewhat 
shorter.
    First is I want to outline some of the State experiences 
with voluntary and mandatory programs in States on this topic. 
Second, I want to discuss the MOU, which we have been 
discussing extensively today. And third, I want to tell you 
something about the approach that ECOS and the Quicksilver 
Caucus are recommending to EPA to address this topic.
    As you know, Quicksilver Caucus research has looked at five 
State programs, and the short version of that is that we found 
in every case, when it became mandatory, as the graph you 
showed earlier demonstrated, the results went up considerably. 
And consequently also, I might add, the amount of mercury in 
the sewage treatment sludge went down.
    Now, I want to say something about the testimony Mr. Walsh 
made regarding the fate of mercury in sewage treatment systems 
when it leaves a dental office or any other source, for that 
matter. It doesn't mysteriously disappear. That mercury that is 
not in the water effluent is in the biosolids, and from there 
it is either applied to land, it is incinerated and goes out 
the stack, or it is buried in a landfill. Landfills have a 
lifetime, but they don't last forever. And so the fate of that 
mercury is to be put back into the environment, regardless, 
sooner or later, when it goes into the POTW.
    Coming back to my second point, the MOU, as you have 
already stated, we were not involved in the development of the 
MOU. It was a surprise to us when it came out. If we were asked 
to be on it, we would say yes immediately, and we hope that 
happens because we think the States obviously have a lot to 
contribute on this subject matter. States are ahead of EPA on 
removing mercury from dental facilities.
    I would say, though, lest I leave a bad impression about 
our relationship with EPA, we do have a good relationship with 
EPA on other mercury issues, for example, the State/EPA mercury 
dialog kick-off meeting that is going to happen in June. Ms. 
Stoner mentioned that. It is just that we can't say we had the 
same relationship on this particular topic.
    The third point I wanted to make is a resolution that ECOS 
passed at its spring meeting only a couple of months ago. I 
think that one is significant because the States recognize that 
amalgam can be the single largest source of mercury for a POTW, 
and that it is a water discharge concern and a source of 
pollution when sludge is incinerated or land applied. And this 
is the significant part, because in these days when State 
budgets are down and we are concerned about the cost to 
implement EPA rules, that issue was not brought up on this 
topic. In fact, our members agreed that EPA needs to include 
dental facilities under the health care sector for rulemaking 
in its effluent guidelines program plan and require the use of 
best management practices to comply with that rule.
    In March just recently the Quicksilver Caucus sent a letter 
to EPA with the same recommendations, and we pointed out that 
the BMP's recommendations included the installation and use of 
separators. There doesn't seem to be much dispute about that as 
a best management practice. Even ADA, as they have said, have 
recommended that.
    So our two-pronged strategy acknowledges the value of 
voluntary programs. They do have some value, and that is that 
EPA should amend the MOU to include the role of a 
decisionmaking to include the States, and EPA should set and 
implement ambitious voluntary reduction goals throughout the 
MOU, and perhaps they have done that now. That will hold us to 
some results during the period of time in which a rule becomes 
final, and that can take quite a long time, as you probably 
know.
    But eventually EPA should require the dental facilities to 
implement BMPs, and they should install that and use 
separators, and that rulemaking should come out this year, in 
our opinion.
    Thank you very much.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.053
    
    [GRAPHIC] [TIFF OMITTED] T5133.054
    
    [GRAPHIC] [TIFF OMITTED] T5133.055
    
    [GRAPHIC] [TIFF OMITTED] T5133.056
    
    [GRAPHIC] [TIFF OMITTED] T5133.057
    
    [GRAPHIC] [TIFF OMITTED] T5133.058
    
    [GRAPHIC] [TIFF OMITTED] T5133.059
    
    [GRAPHIC] [TIFF OMITTED] T5133.060
    
    Mr. Kucinich. Mr. Cain, you may proceed.

                    STATEMENT OF ALEXIS CAIN

    Mr. Cain. I appreciate the opportunity to speak to the 
subcommittee today about releases of mercury resulting from the 
use of dental amalgam. In 2007, some colleagues and I published 
an article in the Journal of Industrial Ecology on the life 
cycle environmental releases resulting from the use of a 
variety of mercury-containing products including dental 
amalgam. This paper was based on a mass balance model developed 
by Barr Engineering, with help from the environmental agencies 
of Minnesota, Wisconsin, and Dane County, Wisconsin, along with 
the U.S. EPA.
    The model estimated the life cycle flow of mercury and 
products from production through use and disposal, using 
distribution factors to estimate how much mercury would enter 
various disposal pathways, and using release factors to 
estimate how much of this mercury would be released to air, 
land, and water at each of these stages. I will focus my 
testimony on the air and water releases.
    We estimated, based on the model, that use of dental 
amalgam was responsible for approximately 4\1/2\ metric tons of 
mercury release to the atmosphere in 2005. There is 
considerable uncertainty around this estimate, and all of the 
estimates that I will discuss today.
    Based on our estimates, dental amalgam is certainly not the 
largest source of mercury to the atmosphere, but it is, 
nonetheless, a significant source, accounting for roughly 4 to 
5 percent of total emissions.
    Emissions from human cremation that is the result of the 
presence of dental amalgam fillings in corpses accounted for 
approximately half of the emissions related to dental mercury. 
Other significant air emissions pathways included 
volatilization of mercury within the dental office, itself, and 
disposal of sewage sludge, both from incineration and land 
application. Dental office mercury enters sewage sludge because 
of discharges to sanitary sewers from dental wastewater 
systems.
    We also estimated that dental amalgam was responsible for 
approximately 0.4 metric tons of mercury releases to water in 
2005. We estimated using the model that implementation of best 
practices, including amalgam separators, at all dental offices 
would reduce water discharges by approximately 0.3 metric tons, 
and air emissions by approximately one metric ton through 
reducing the mercury content of sewage sludge which is 
incinerated or land applied.
    You may wonder what the value of this type of modeling is. 
Why use a model to estimate releases instead of measuring these 
releases directly? I think that there are several reasons that 
a model can be useful. First, a model can provide estimates, 
however rough, of sources that are difficult to measure 
directly, such as releases from the land application of sewage 
sludge.
    Second, a model can generate estimates of releases caused 
by particular products. Direct measurement, for instance, can 
give us an estimate of how much mercury is emitted by 
incinerators, but it requires a model to estimate how much of 
those emissions result from the disposal of a particular type 
of product.
    Third, a model allows us to predict the impact of various 
management options. For instance, to estimate the potential 
decline in mercury releases resulting from installation of 
amalgam separators.
    Finally, a model provides a check on emissions measurements 
and indicates where additional measurement may be warranted.
    I would like to focus now on mercury emissions from 
crematories. In the case of these releases, EPA's estimate is 
that total nationwide emissions were 0.3 tons in 2005, based on 
extrapolating from emissions measurements. The model, however, 
estimates that these emissions are more than two tons per year, 
based on data on the average mercury content of fillings, the 
number of fillings that an average person has at the end of 
life, and the number of corpses that are cremated.
    As a general rule, there are good reasons to prioritize 
measured results over an output from a model; however, I 
believe that in this case the model's results are more 
reliable. U.S. EPA's estimates are extrapolated from a small 
number of emissions tests at a single facility, which could 
generate a misleading result, given that we would expect 
releases per cremation to vary greatly, depending on the number 
of dental amalgam fillings in the particular corpse being 
cremated at the time that the measurements were being made.
    The hypothesis that emissions inventories may under-state 
the significance of mercury emissions from crematories is 
supported by evidence from emissions testing in Europe, where 
there has been more testing done than has been the case in the 
United States. For instance, the National Emissions Inventory 
in the United Kingdom uses an emissions factor of three grams 
per cremation, while Norway and Sweden each use an emissions 
factor of five grams per cremation. U.S. EPA's emissions 
inventory implies emissions of 0.4 grams per cremation, far 
lower than the likely range suggested by the European evidence. 
The life cycle flow model implies emissions of 2.7 grams per 
cremation, which is more consistent with the European evidence.
    Given all the uncertainties, I certainly do not claim that 
the mercury flow model has produced a correct estimate of 
mercury emissions from human cremation; however, I believe that 
the evidence is strong that EPA's estimate understates 
emissions from this source category. I believe that an 
appropriate evaluation of all the available evidence would lead 
to an increase in EPA's estimate of mercury emissions from 
crematoria.
    [The prepared statement of Mr. Cain follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.061
    
    [GRAPHIC] [TIFF OMITTED] T5133.062
    
    [GRAPHIC] [TIFF OMITTED] T5133.063
    
    [GRAPHIC] [TIFF OMITTED] T5133.064
    
    Mr. Kucinich. I thank the gentleman.
    Mr. Reindl? Thank you.

                    STATEMENT OF JOHN REINDL

    Mr. Reindl. Thank you, Mr. Chairman and Congresswoman 
Watson. My name is John Reindl. I am a volunteer for the 
Mercury Policy Project, because, unfortunately, Mr. Bender 
became ill and has been unable to attend. I do have 13 slides 
that I would go through very quickly, since a lot of these 
topics have been covered already.
    This chart, and it is repeated in the written testimony, 
shows the quantity of mercury used in 2004 and the quantity of 
mercury that is currently in products. As noted in the chart on 
the left, about 25 percent of all the mercury used in 2004 was, 
in fact, for dental amalgams. As stated before by your Chair, 
about 1,000 tons of mercury are currently in the teeth of 
people in the United States, by far the largest source of 
mercury in any products in the United States.
    We believe that mercury from tooth fillings is one of the 
largest sources of mercury that is discharged from various 
sources to wastewater treatment plants. Since a typical amalgam 
has a lifetime of 10 to 20 years, we have to look not only to 
mercury that is currently being used, but the mercury that was 
used, because those fillings will come out approximately 15 
years later, and, as has been noted before, mercury that 
escapes into the environment, regardless of what form it is, is 
going to be converted to methylmercury, which is going to 
buildup into fish and enter the human body.
    We have gone over the memorandum of understanding several 
times before, so I will skip this slide and, in fact, the next 
slide talks about the memorandum of understanding even more, so 
I will skip that one, as well.
    EPA testified that there were 12 States that have mandatory 
agreements. We were aware of 11 of them. Obviously, if 11 
States or 12 States have agreements, 38 or 39 do not have 
agreements.
    What we find is that, for a suitable best management 
practices program, these are the elements that need to be 
included. It needs to include the installation and proper 
management of amalgam separators, requiring the dentists to 
recycle their mercury and requiring reporting to verify 
compliance.
    This chart will show the partial estimate of sales of 
mercury amalgam separators. The States in the white, which are 
the far right of those bar charts, shows those States without 
legislation or requirements, and the tall ones represent those 
States with legislation. Only 13 percent of amalgam separators 
have been sold in the non-regulated States, even though those 
are 38 to 39 States, three times the number of regulated 
States, the amount of amalgam separators is less than one-
seventh of those otherwise sold.
    Here is a comparison of the EPA's estimate of mercury 
releases from dental sources to the atmosphere compared to 
those represented by the Mercury Policy Project. As your Chair 
mentioned before, the estimates of the Mercury Policy Project 
are five to seven times larger than those estimates of EPA. 
And, as you can see from the slide, there are several areas 
that EPA did not include any estimates whatsoever.
    This shows a flow diagram that was originally developed by 
a Swedish chemical agency and was used actually as the basis 
for our mercury flow models throughout the United States.
    My big focus, though, is going to be on cremation. This is 
the area that I have specialized in. As we see from this chart, 
and, again, it is in the written testimony, the number of 
cremations is expected to dramatically increase in the future. 
We believe that this is going to increase the amount of mercury 
that is emitted to the environment.
    Additionally, what is happening is, because of improved 
dental care in this country, the dental community has really 
done a super job, and more people are having more of their 
teeth when they pass away, but in those teeth there are more 
dental restorations; that is, mercury fillings. Therefore, we 
are going to have an increase in mercury emissions for two 
reasons: one is increased number of cremations, and the second 
is more dental restorations.
    This shows a bunch of numbers, which is kind of hard to see 
on the wall, but if you look in your testimony you will see 
that our estimate is that the amount of mercury will over 
double within the next 10 years as air emissions from 
cremations, because of the combined impact of more cremations 
and more dental restorations.
    The last slide is a summary. There are seven to nine metric 
tons of mercury released to the environment per year. That is 
growing rapidly. We don't feel that the premise of the MOU was 
based on true facts. We believe EPA should establish effluent 
guidelines for dental offices. We believe that the dental air 
emissions data should be updated, especially for cremation. We 
believe that EPA should regulate mercury emissions from 
crematoria, and we believe that EPA should maintain a 
transparent, open process to include the non-governmental 
organizations.
    Thank you.
    [The prepared statement of Mr. Reindl follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.065
    
    [GRAPHIC] [TIFF OMITTED] T5133.066
    
    [GRAPHIC] [TIFF OMITTED] T5133.067
    
    [GRAPHIC] [TIFF OMITTED] T5133.068
    
    [GRAPHIC] [TIFF OMITTED] T5133.069
    
    [GRAPHIC] [TIFF OMITTED] T5133.070
    
    [GRAPHIC] [TIFF OMITTED] T5133.071
    
    [GRAPHIC] [TIFF OMITTED] T5133.072
    
    Mr. Kucinich. Thank you very much, Mr. Reindl.
    Mr. Walsh, we are going to go to questions now. You 
testified that the ADA filed public comment in 2007 against 
bringing dentist offices under mandatory effluent guidelines. 
The reason you exempt dentists was, as you state, because 
dentists can and will act on their own. But isn't it true that 
nearly every State or local jurisdiction that has tried to get 
dentists to voluntarily adopt mercury separators has then 
chosen to mandate or threatened to mandate a separator 
requirement because dentists were not, in fact, acting in large 
numbers on their own?
    Mr. Walsh. Well, I think it is inherent in any voluntary 
program that I am aware of that there is the implicit or 
explicit consideration that the next step is regulation. In the 
MOU, we specifically say that EPA and the States reserve that 
right. In fact, in the communications that the ADA uses to its 
members, it points out, as it must, to be honest and forthright 
with its members, that if they do not do a voluntary compliance 
the likely next step is enforcement.
    Mr. Kucinich. So are just some members waiting for 
mandatory?
    Mr. Walsh. There has been, I think, a very long education 
road to educate the dental professionals about this issue. When 
I was first retained by the ADA back in 2001, there was very 
little knowledge of what the regulatory regime was. They were 
dentists. They had not been involved in many environmental 
issues.
    They also had some scientific issues about what was being 
said. A lot of people took the 50 percent numbers of what was 
going into the plant, POTW plants, and said that was what was 
coming out. We built a factual basis that showed that it was a 
problem that was significant in terms of the effluent, the 
benefits of recycling, and on a science basis, which 
professionals like the Dental Association and its members are 
understanding more, and we look at the data and there were 
early failures, and the dental community was part of the reason 
for the failures.
    But if you look at the pattern not only in the voluntary 
programs involving dentists, but other voluntary programs, 
because for 20 years the Water Office has used voluntary 
programs. In situations like this where there is a large number 
of small entities that have to be regulated and it has mainly 
to do with their own resources and their own priorities, we 
thought that if we have a consistent message from the ADA, from 
the regulators, and those States or localities where there are 
either local conditions that are required more stringent, they 
should go ahead and do what they think is appropriate. We 
reserved all the rights to do that, but we think that it 
actually will be quicker to do this on a voluntary basis, and 
we understand that if we are not successful that a likely 
outcome is that EPA will issue a regulation.
    Mr. Kucinich. Mr. Brown, would you like to respond to what 
Mr. Walsh said?
    Mr. Brown. Voluntary programs have a purpose and a place, 
but our position is that their time as the solution has passed. 
We need to have EPA, under the Clean Water Act, assert its 
authority to issue a rule on this matter, and during the 
process when that rule is developed, before it is finalized, it 
takes years, typically, that the voluntary programs can help 
educate dentists about their obligations and get some results 
before the rule actually comes into place.
    Mr. Kucinich. Mr. Walsh, you saw that chart on the wall, 
right?
    Mr. Walsh. I did, yes.
    Mr. Kucinich. The one that deals with dentists seemingly 
responding when mandatory regulations are requiring adoption of 
mercury separators. I mean, I just wanted to ask you, because 
you have seen it, isn't that evidence that dentists respond 
when you have mandatory regulations?
    Mr. Walsh. I think you need to look at the individual 
cases.
    Mr. Kucinich. I am asking what you saw, not what I saw.
    Mr. Walsh. Well, what I saw is a number of different 
factual backgrounds. One of the charts shows, I believe, either 
Minnesota or Minneapolis in its voluntary program. That was a 
relatively successful voluntary program, and it was followed by 
agreement of the local dental association to go to a----
    Mr. Kucinich. Are you talking about Massachusetts?
    Mr. Walsh. No, I am talking about----
    Mr. Kucinich. Take a look at that chart. I just want to 
make sure we are talking about the same thing, because if you 
are talking about Massachusetts, they had a different reason 
for their compliance in Massachusetts. This letter from the 
Commonwealth of Massachusetts, which I will put into the 
record, says a big jump in SolmeteX, Inc. separator sales 
apparent in Mr. Dube's exhibits starting 24 months prior to the 
effective date of Massachusetts' regulations, which were 
adopted in 2006, this sales increase started in 2004 was 
concurrent with an innovative incentivized early compliance 
effort implemented by MassDep in concert with the development 
of State regulations requiring separator use.
    We will put that in the record, without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.073
    
    [GRAPHIC] [TIFF OMITTED] T5133.074
    
    [GRAPHIC] [TIFF OMITTED] T5133.075
    
    Mr. Kucinich. Do you have any comment on that?
    Mr. Walsh. Without having read the details----
    Mr. Kucinich. I am going to ask my staff to take----
    Mr. Walsh. As a general matter, as I said a few seconds 
ago, many of these programs, voluntary programs, some of them 
were do it voluntary within X number of years or we are going 
to make it mandatory. In a couple of cases they decided they 
didn't need to go to the mandatory case. Part and parcel of any 
of these voluntary kinds of programs is the implicit or 
explicit threat of there being a mandatory requirement.
    Mr. Kucinich. But if there is no mandatory requirement in 
the offing----
    Mr. Walsh. If there is no mandatory----
    Mr. Kucinich [continuing]. The voluntary compliance is 
going to be low, right?
    Mr. Walsh. That is true, but----
    Mr. Kucinich. OK. I am done. That is my question.
    Mr. Walsh. Fine.
    Mr. Kucinich. That is what I wanted to hear.
    Now, Ms. Watson is going to have 5 minutes, and then we 
will be back. Thanks.
    The Chair recognizes Ms. Watson.
    Ms. Watson. Thank you very much.
    I mentioned a bill that I have called the CHOMP Act, and it 
stands for Consumers Have Options for Molar Protection. First 
letter of each word spells CHOMP, and we chomp on food.
    Your organization came out in opposition to my bill, the 
CHOMP act, because the ADA believes that mercury amalgam is 
safe. However, the CHOMP Act addresses important consumer 
knowledge.
    Do you believe dentists should tell every patient that 
amalgam is mainly mercury?
    Mr. Walsh. Testimony that I have prepared and what I have 
been prepared to talk about----
    Ms. Watson. Yes? No?
    Mr. Walsh [continuing]. Has to do with the----
    Mr. Walsh. Can you answer my----
    Mr. Walsh [continuing]. MOU and----
    Ms. Watson [continuing]. Question very specifically?
    Mr. Walsh. No, I can't answer your question because I am 
not the person at the ADA who has responded to you. We can 
respond in writing.
    Ms. Watson. Let me ask it again, and listen to it very 
carefully. If I am not speaking clearly, just let me know.
    Do you believe dentists should tell every patient that 
amalgam is mainly mercury? Yes? No?
    Mr. Walsh. You mean me personally, you are asking?
    Ms. Watson. Do you, Mr. Walsh?
    Mr. Walsh. Just as Mr. Walsh?
    Ms. Watson. Do you believe that dentists should ask that 
question or tell the patients that amalgam is mainly mercury?
    Mr. Walsh. I think I would have to know more about the 
issue than I do, because----
    Ms. Watson. All right. If not, state in what circumstances 
should dentists withhold from patients that amalgam is mainly 
mercury?
    Mr. Walsh. I am not aware of any circumstance in which 
dentists withhold that information.
    Ms. Watson. Can you think of a time when they should tell 
their patients what amalgam is composed of and what percentages 
of mercury is in amalgam?
    Mr. Walsh. This is not something I am either qualified to--
--
    Ms. Watson. You are not aware?
    Mr. Walsh [continuing]. Or prepared to respond.
    Ms. Watson. You are not aware? Yes? No?
    Mr. Walsh. It is not a question I am capable or qualified 
to answer.
    Ms. Watson. Or are you capable or qualified to know what is 
amalgam? What is an amalgam?
    Mr. Walsh. I do know what an amalgam is, yes.
    Ms. Watson. OK. Do you know the percentages of what makes 
up the amalgam?
    Mr. Walsh. Yes.
    Ms. Watson. OK. Is amalgam 50 percent mercury?
    Mr. Walsh. On average, yes.
    Ms. Watson. OK. Do you think a person should know that 
amalgam is 50 percent mercury?
    Mr. Walsh. It is beyond my preparation for this meeting and 
I have to think----
    Ms. Watson. Is mercury safe?
    Mr. Walsh. The FDA has said mercury in amalgam use is safe.
    Ms. Watson. Is mercury safe?
    Mr. Walsh. Well, you have to look at the use, the exposure 
to determine it. In certain uses it is not safe, in other uses, 
at least government agencies have found it to be safe.
    Ms. Watson. Let me see. Maybe I don't really speak clearly, 
so let me speak real clearly. You have a 9-year old child in 
the dental chair and you are going to fill that cavity in that 
child's mouth, the mother is sitting right outside the door or 
maybe inside because no one likes to go to the dentist. If the 
mother would ask the dentist, what are you putting into my 
child's mouth, do you think the dentist should tell that mother 
what is going in the mouth?
    Mr. Walsh. If I were----
    Ms. Watson. We are talking about professionals.
    Mr. Walsh. If I were asked the question I would answer the 
question, but you are asking in a policy context.
    Ms. Watson. We are talking about a professional dentist, 
DDS, and the mother wants to know what is going in the child's 
mouth. What do you think? Who do you represent?
    Mr. Walsh. I represent the American Dental Association on 
amalgam wastewater issues.
    Ms. Watson. OK. I will accept that. OK. Now, something goes 
in that amalgam, and when they finish they usually give you 
some water and you spit it out. It becomes wastewater. It goes 
out into the sewage plant and then it goes into the ocean.
    Now, if you were asked by a parent, is there anything in 
there that will put my child at risk, do you think a dentist 
should say yes, no?
    Mr. Walsh. [No audible response.]
    Ms. Watson. Apparently you are having trouble with my 
questions. Let me go on.
    Mr. Walsh. OK. Go on.
    Ms. Watson. I do understand that historically----
    Mr. Kucinich. The gentlelady's time is expired, but you can 
ask your question.
    Ms. Watson. OK. I will just ask this one and then I will 
leave it alone, but I think we are getting the picture. I think 
we are getting the picture here, and we are talking about a 
toxic substance. I do understand that historically mercury 
fillings have been labeled silver fillings because of their 
color. Is that something you understand?
    Mr. Walsh. I have heard and used that phrase. Yes.
    Ms. Watson. OK. However, that title is no longer relevant 
and it no longer fits and is desperately in need of a 
scientific update. Why does the ADA insist on using the term 
silver fillings to describe amalgam rather than more 
appropriately referring to mercury fillings? And why doesn't 
the ADA advocate for implementation of the recognized best 
practice of calling these fillings mercury fillings? Now, you 
represent the ADA. Can you tell us?
    Mr. Kucinich. The witness can answer the question and then 
we are going to complete this round.
    Ms. Watson. Yes.
    Mr. Walsh. I think the ADA can answer that question in 
writing. Again, that is not within the area in which I 
represent them.
    Ms. Watson. Are you refusing to answer verbally?
    Mr. Walsh. I am saying I am not the one that knows the 
answer, so I----
    Ms. Watson. But you are representing the ADA.
    Mr. Walsh. I am representing them, as I said in my opening 
statement----
    Ms. Watson. I yield back.
    Mr. Walsh [continuing]. Based on amalgam wastewater issues.
    Ms. Watson. I yield back.
    Mr. Kucinich. Well, let me pick up where the gentlelady 
left off, and that is that you heard the question or asked, and 
I would like to see an answer in writing.
    Mr. Walsh. We will.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5133.076
    
    [GRAPHIC] [TIFF OMITTED] T5133.077
    
    [GRAPHIC] [TIFF OMITTED] T5133.078
    
    [GRAPHIC] [TIFF OMITTED] T5133.079
    
    [GRAPHIC] [TIFF OMITTED] T5133.080
    
    [GRAPHIC] [TIFF OMITTED] T5133.081
    
    [GRAPHIC] [TIFF OMITTED] T5133.082
    
    [GRAPHIC] [TIFF OMITTED] T5133.083
    
    [GRAPHIC] [TIFF OMITTED] T5133.084
    
    [GRAPHIC] [TIFF OMITTED] T5133.085
    
    [GRAPHIC] [TIFF OMITTED] T5133.086
    
    Mr. Kucinich. I appreciate your being here. Until myself 
and my colleagues get answers, definitive answers to these 
questions, we are not going to be able to put this issue to 
rest and we will be coming back and back and back.
    Mr. Walsh. We will be happy to answer all of those 
questions.
    Mr. Kucinich. That is why we are hoping these hearings 
are----
    Ms. Watson. Mr. Chairman, could you yield so I can ask you 
a question?
    Mr. Kucinich. All right.
    Ms. Watson. I would hope that if we do another hearing, we 
will require someone who is a professional dentist from the ADA 
rather than the attorney, because the questions I am asking 
really should be responded to by a professional----
    Mr. Kucinich. Well, I will ask staff to be mindful of your 
request.
    Ms. Watson. Maybe we can put it in writing and see if we 
can get somebody, not the attorney.
    Mr. Kucinich. Mr. Walsh is aware of the rules that this 
committee has to produce witnesses, so you can facilitate that 
working with the committee, I am sure. Thank you.
    Ms. Watson. Thank you.
    Mr. Kucinich. Mr. Cain, in your testimony you conclude that 
``EPA's estimate under-states emissions of mercury from human 
cremation.'' Your own scientific work estimates the true 
emissions to be about at least seven times the estimate from 
EPA; isn't that right?
    Mr. Cain. That is right.
    Mr. Kucinich. The problem of mercury air emissions by 
crematoria likely to increase, decrease, or stay the same, in 
your opinion?
    Mr. Cain. In my opinion I agree with Mr. Reindl that over 
the next 10 years it will increase. I think over the much 
longer term it will decrease as a result of better dental care 
and the reduced need for dental amalgam fillings. But for the 
next decade, it will certainly increase.
    Mr. Kucinich. Mr. Reindl, what is the European research 
about mercury air emissions from crematoria showing?
    Mr. Reindl. I would agree with what Mr. Cain had said. The 
peak appears to be forecast to occur about 2020, and after that 
period of time it will start to decrease.
    Mr. Kucinich. So does mercury in the teeth of deceased 
persons amount to a significant source of air emissions from 
crematoria?
    Mr. Reindl. In my opinion, yes, a very significant source.
    Mr. Kucinich. Going back to Mr. Cain, your paper in the 
Journal of Industrial Ecology was published in 2007, but you 
have been presenting your work since 2005 at scientific 
conferences; isn't that right?
    Mr. Cain. That is correct.
    Mr. Kucinich. And in those years did your work ever have an 
impact on EPA's official air emissions inventory?
    Mr. Cain. No, it did not.
    Mr. Kucinich. Now EPA has informed us that they are in the 
process--that was the word that Ms. Stoner used--process of 
developing an automated, internet-based procedure of receiving 
actual emission measurements and calculating with them by 
algorithm emissions factors in a dynamic way. Before my staff 
spoke with you about that, have you ever heard from anyone in 
the EPA that the agency was revamping its emissions inventory 
in this way?
    Mr. Cain. No, I had not.
    Mr. Kucinich. And do you think, based on what you know so 
far, that this new procedure is assured of getting the air 
emissions of mercury from crematoria right, or are there 
possible complications that could compromise the new inventory 
system?
    Mr. Cain. I think there are complications. I mean, 
certainly to have additional stack testing would be a 
beneficial thing. I think, for some of the reasons I stated in 
my testimony, you need to be careful that the stack testing is 
representative and that it is probably a good idea to not rely 
entirely on stack tests but also to look at techniques such as 
looking at how much mercury is actually going into the 
crematoria, which is easier to do than to measure the mercury 
coming out.
    Mr. Kucinich. So what are some of the difficulties that 
could get in the way of the EPA's new system of emission 
factors accurately determining emission factors for mercury air 
emissions from crematoria and sludge incinerators?
    Mr. Cain. I think the biggest problem is getting 
representative samples for emissions tests. The other problem 
is that mercury air emissions testing is difficult to do. It is 
easier to make mistakes. I mean, it is fairly easy to count 
fillings in a person's mouth, but more difficult to measure 
micrograms of mercury per cubic meter of air. So I think it 
would require a lot of air emissions testing.
    Mr. Kucinich. So what questions do you think Congress 
should be pursuing with EPA to ensure that their new air 
mercury emissions aren't as mistaken as the old estimates?
    Mr. Cain. I would think that asking EPA to consider all the 
available evidence, both stack testing and other types of 
evidence, would be appropriate.
    Mr. Kucinich. Mr. Reindl, do you have any comment on that?
    Mr. Reindl. Besides the comments that Mr. Cain made about 
the difficulty measuring the stack emissions, what we have 
found through our literature review is actually much of the 
mercury doesn't go through the stack, and that they have found 
that the mercury emissions actually in the office of the 
crematoria are higher than the emissions outside, suggesting 
that the emissions are not going necessarily up the stack but 
are going through leaks, if you will, in the actual cremation 
unit, and so measuring the emissions from the stack is going to 
be very, very difficult.
    Another point to note is that there is no crematorium in 
the country that is required to have any air emission controls 
whatsoever. We have almost no data on an ongoing basis from any 
crematorium. The one crematory that was used 10 years ago had 
mainly just a water spray system to reduce some of the dust, 
but there is no other emissions control on any crematorium in 
the country otherwise.
    Mr. Kucinich. To staff, one of the things that occurs to me 
is that as the EPA is going through this process we should call 
to the EPA's attention experts who are available who have done 
research that might enable their process to be enriched by that 
research. Especially ones who work there. Just a thought.
    The Chair recognizes Ms. Watson.
    Ms. Watson. Mr. Brown, you have heard my line of 
questioning, and you heard the responses that have come from 
Mr. Walsh. Can you help us understand the position of the ADA? 
Do you know anything about the American Dental Association and 
their opposition to the amalgam fillings, the silver fillings?
    Mr. Brown. I don't. In fact, it pains me to have to say I 
have sort of the same answer that Mr. Walsh did. I can talk to 
you about the environmental disposition of the mercury once it 
leaves the dental office, but not the rest.
    Ms. Watson. OK. Well, can you? Maybe that is something that 
might be compelling as we try to gather more evidence and try 
to change the ADA's position about amalgams.
    Mr. Brown. Yes, ma'am.
    Ms. Watson. The environmental impact, because we all know 
that the waste goes to the sewer management and then out into 
the ocean, and we just heard the emissions. There is no way or 
they have not come up with a way to capture and to change the 
particles in the emissions. They go out into the environment.
    Can you help us?
    Mr. Brown. Well, one of the things that in preparation for 
this hearing and listening to the testimony is it occurs to me 
that I need to go back and ask the Quicksilver Caucus if it has 
any recommendations to ECOS about incinerators and mercury 
emissions from crematoria, because that is not an issue that, I 
mean, we are aware of it and we have looked at it, but we don't 
have a position on it, and it strikes me that we need to have 
one.
    Ms. Watson. All right. Mr. Cain, can you help us?
    Mr. Cain. I can note on the question of controlling mercury 
emissions from incinerators that one of the States in Region 5, 
Minnesota, has worked on a voluntary basis with the mortuary 
association in the State and the University of Minnesota, and 
they have come up with a goal of reducing mercury emissions 
from crematoria by 75 percent.
    Ms. Watson. Yes.
    Mr. Cain. There is a variety of alternatives that they are 
going to look at, including alkaline hydrolysis or 
dechlorinating teeth prior to cremation.
    Ms. Watson. I am aware of many substances, Mr. Brown, that 
can be used in place of the mercury in the amalgam, and I was 
told by the National Dental Association that they are too 
expensive and people will stop coming and bringing their 
children or coming in for fillings because of the cost.
    Does anyone at the table here know of any of the 
substitutes? Mr. Walsh, you can't speak professionally. You 
just told me that, so I will refer this to other panelists, 
maybe Mr. Reindl. The separators, yes, and, Mr. Reindl, can you 
tell us how we can protect from further pollution of our 
environment because of the mercury switch?
    Mr. Reindl. Well, speaking on the cremation issue, 
obviously there are two ways to deal with it. One is to remove 
the teeth prior to cremation, and the other is to control the 
mercury emissions during the process or use an alternative 
process such as the alkaline hydrolysis process. One of the 
challenges that Minnesota is facing is that they are not sure 
of what technology can help them meet their goal for stack 
emissions and, as I mentioned before, not all the emissions to 
through the stack, so that is a very big challenge.
    Ms. Watson. So we still need more research is what you are 
saying?
    Mr. Reindl. We still need more research. When your Chair 
noted to staff that EPA ought to involve experts on the 
cremation issue, I raised my hand to make a note that 
unfortunately we don't have many experts on this. When I have 
been doing this literature and survey and contacting people in 
the field for over 10 years, I have never found anybody at a 
university in North America that has worked on this. I have 
never found anybody in the entire world that has done such a 
survey of references on cremation. In fact, some of the people 
that I was in contact with in Germany and Norway are no longer 
involved in it. There simply aren't any experts in this field.
    Ms. Watson. I hear you loud and clear. I think that is one 
of the reasons why we are having this hearing, and I just 
appreciate the Chair for allowing me to take part in this 
hearing. I am on the subcommittee, too. Mercury is a toxic 
substance that can do harm. I am just shocked that 
professionals don't understand the harm that mercury can do in 
a filling, and they are still calling these silver filings. You 
know, people like gold fillings and silver and so on. I think 
these mis-statements and holding back this information is very 
harmful to the health.
    Mr. Chairman, I will just end by saying this: I am about 
this for improving our environment and keeping Americans 
healthy, and people who only consider the money that comes out 
of this profession from doing this I think are an abomination 
to society. I am concerned about the health of young people. I 
am a victim. And when we come and we bring professionals to 
this panel and they are not straightforward and honest to us 
and do not want to share with the public, the public has a 
right to know about anything that is inserted in their bodies.
    It is a proven fact that mercury is a very toxic substance, 
and I would hope that the dentists would understand and would 
have the knowledge, Mr. Reindl, of how they are polluting the 
wastewater. And I would hope that they would not send an 
attorney who really doesn't understand the chemicals and the 
ingredients and what makes up an amalgam here to testify in 
front of this committee, and particularly when I am on it, 
because I don't buy it.
    We have been studying this, Mr. Chairman, for years, and so 
I would like a professional in front of me that can tell me 
what they put into a person's mouth and will share that 
information. We fought for years to get the warnings on 
smoking, and now almost on everything you buy in a market you 
can find out the ingredients in there. If you have allergies to 
peanuts, you had better know there are peanuts in that candy 
bar you give to a kid, because they can kill you. And if you 
are a professional medical person and you don't know, you are 
just as guilty as somebody who put a gun to their head.
    With that, I yield back.
    Mr. Kucinich. I thank the gentlelady from California for 
her participation in this hearing, and all the other Members 
who participated.
    This is the Domestic Policy Subcommittee of Oversight and 
Government Reform. Today's hearing, Assessing EPA's Efforts to 
Measure and Reduce Mercury Pollution from Dentists' Offices. We 
have had two panels of witnesses. I want to thank the panel in 
front of us for their participation.
    This committee will continue to retain jurisdiction over 
this matter related to various types of mercury toxicity and 
their circulation in the broader society.
    As you can see, there are members of this subcommittee, 
myself included, who have very strong feelings on this. It is 
noteworthy because, as chairman, I rely very closely on how the 
members of my committee feel about what we should pay attention 
to.
    That having been said, to the best of your ability to help 
us move this along to compliance and to protect the public 
health would be much appreciated.
    With that, this subcommittee stands adjourned. Thank you.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5133.087

[GRAPHIC] [TIFF OMITTED] T5133.088

[GRAPHIC] [TIFF OMITTED] T5133.089

[GRAPHIC] [TIFF OMITTED] T5133.090

[GRAPHIC] [TIFF OMITTED] T5133.091

[GRAPHIC] [TIFF OMITTED] T5133.092

[GRAPHIC] [TIFF OMITTED] T5133.093

[GRAPHIC] [TIFF OMITTED] T5133.094

[GRAPHIC] [TIFF OMITTED] T5133.095

[GRAPHIC] [TIFF OMITTED] T5133.096

[GRAPHIC] [TIFF OMITTED] T5133.097

[GRAPHIC] [TIFF OMITTED] T5133.098

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
